<html>
<title> - THE U.S. ROLE AND STRATEGY IN THE MIDDLE EAST: YEMEN AND THE COUNTRIES OF THE GULF COOPERATION COUNCIL</title>
<body><pre>[Senate Hearing 114-812]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-812

THE U.S. ROLE AND STRATEGY IN THE MIDDLE EAST: YEMEN AND THE COUNTRIES 
                    OF THE GULF COOPERATION COUNCIL

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 6, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available via the World Wide Web: https://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-925 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a>                

                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Ben Cardin, U.S. Senator From Maryland......................     2
Hon. Stephen Seche, Executive Vice President, The Arab Gulf 
  States
  Institute, Washington, DC......................................     3
    Prepared Statement...........................................     5
Hon. Mary Beth Long, Founder and Chief Executive Officer, Metis 
  Solutions, Washington, DC......................................     8
    Prepared Statement...........................................    10

              Additional Material Submitted for the Record

Camp David Joint Statement Submitted by Senator Benjamin L. 
  Cardin.........................................................    38

                                 (iii)

  

 
                   THE U.S. ROLE AND STRATEGY IN THE 
  MIDDLE EAST: YEMEN AND THE COUNTRIES OF THE GULF COOPERATION COUNCIL

                              ----------                              


                        TUESDAY, OCTOBER 6, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:32 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Flake, Perdue, Cardin, 
Menendez, Shaheen, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order. We thank our witnesses for being here and look 
forward to your testimony.
    Today's hearing is the third in a series of hearings 
examining the role of the United States in the Middle East. 
This hearing will focus on two related topics, U.S. policy 
toward our GCC allies and the war in Yemen.
    In May of this year, the President hosted delegations from 
six GCC countries in an effort to allay their concerns about 
the nuclear deal and to reaffirm American commitment to our 
allies. That was almost 5 months ago. I think it is unclear at 
present what the outcome of that has been.
    As you talk to our gulf partners, there is clear skepticism 
about American leadership in the region.
    Meanwhile, there has been a marked increase in American 
weapon sales to the gulf over the last few years. That said, a 
business relation, certainly, is not equivalent to a strategic 
partnership.
    There is a strong case to be made that almost every 
decision this administration has made concerning the Middle 
East over the last few years has been considered with pursuit 
of the Iran nuclear agreement in mind, or at least that has 
impacted, certainly, their decisions.
    Now that the agreement is going to be implemented, it is 
vitally important--vitally important--that we close the 
daylight between us and our GCC allies.
    I hope our witnesses will cover why the GCC is important to 
American interests and what the future of security cooperation 
in that region should look like.
    That future should be on display right now in Yemen, where 
the perception of a disengaged America and a resurgent Iran has 
led the GCC to take a stand.
    Now, in fairness, that stand is not entirely on their own, 
as Gulf States are displaying their use of American equipment 
and training with surprising effectiveness, but also an 
intolerable level of civilian casualties.
    The war and the resulting extreme humanitarian crisis are 
receiving the reluctant support of this administration. Yet I 
am not sure what the defined objectives and end state of that 
support is at present. Hopefully, you will help us with that.
    I hope our witnesses can help us understand what American 
policy toward the GCC countries should look like and how we 
balance that against real humanitarian concerns.
    Thank you again for appearing before our committee, and I 
look forward to your testimony.
    And with that, we turn to our distinguished ranking member 
and my friend, Ben Cardin.

                 STATEMENT OF HON. BEN CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. I strongly support 
this hearing and having a discussion on the regional security 
strategies involving our Gulf Cooperation Council in Yemen.
    Last week, as you know, I introduced legislation, the Iran 
Policy Oversight Act, and part of that was a response to the 
debate we had during the Iran nuclear agreement review. What 
came out loud and clear from all of our Members is that it is 
critically important that the United States has a well-
articulated regional security strategy that gives comfort to 
our allies, to Israel, to the Gulf Cooperation Council, and 
deals with the challenges in Yemen.
    So this hearing is, I think, critically important for us to 
try to understand what we can do to strengthen the 
understanding in the region about the U.S. leadership.
    Working closely with the Gulf Cooperation Council countries 
is absolutely critical to ensuring that we push back on all 
Iranian destabilizing behavior. Although the U.S.-GCC 
collaboration has taken on new importance and urgency as the 
Iran deal is implemented, it is also important to recognize 
that these relationships and the policy objectives of deepening 
multilateral cooperation is not new.
    U.S. commitment to the legitimate defense needs of the gulf 
countries dates back to the first gulf war. U.S. commitment to 
security cooperation extends through the last decade's 
engagement in Iraq and Afghanistan. And recently, this 
commitment has been underscored through the U.S.-GCC strategic 
cooperative forums hosted by Secretaries of State Clinton and 
Kerry and the U.S.-GCC Camp David summit hosted by President 
Obama.
    U.S. engagement with the GCC is fundamental to achieving 
any shared goal in the region, whether it is defeating ISIL, 
restoring stability in Iraq and Yemen, shoring up Jordan and 
Lebanon, addressing persistent instability in North Africa, 
reinvesting in the peace process between Israel and the 
Palestinians, or working toward a negotiated political 
transition away from Assad in Syria.
    The GCC countries play a critical role in a multitude of 
shared interests from maritime security to counterterrorism, to 
humanitarian response, to the hosting and basing of U.S. forces 
in the region.
    So there are many, many reasons why this relationship is 
critically important.
    I want to just add one additional point, if I might, as it 
relates to Yemen.
    We need to move forward with a political solution in Yemen. 
It is not going to be a military victory. There is going to 
have to be a political solution in that country. We know it is 
not easy. We know it is complicated. But I think the United 
States leadership is going to be critically important as we 
look at dealing with the impact that Yemen has on the GCC 
countries as well as on the regional stability issues.
    So I look forward to listening to our witnesses. I look 
forward to this discussion. As I was saying before we sat down 
with our two distinguished witnesses, there are going to be a 
lot more questions than answers, I am afraid. I think this 
discussion is going to be important so that we can reach an 
understanding as to how the United States leadership can 
advance the security of our friends and allies in the region.
    The Chairman. Thank you for your comments.
    I will introduce our two witnesses.
    One witness is the Hon. Mary Beth Long, founder and chief 
executive officer of Metis Solutions and was the first-ever 
Senate-confirmed female Assistant Secretary of Defense.
    We thank you for being here.
    Our other witness today is the Hon. Stephen Seche, 
executive vice president of the Arab Gulf States Institute and 
former Ambassador to Yemen.
    So you all have a lot to share with us. We thank you both 
for being here. I know you all have been here before and 
understand we would like for you to keep your comments to about 
5 minutes. Any written materials you have will be entered into 
the record.
    With that, Ambassador Seche, if you would begin, we would 
appreciate it.

STATEMENT OF HON. STEPHEN SECHE, EXECUTIVE VICE PRESIDENT, THE 
           ARAB GULF STATES INSTITUTE, WASHINGTON, DC

    Ambassador Seche. Thank you, Mr. Chairman. Mr. Chairman, 
Ranking Member Cardin, members of the committee, as we meet 
this afternoon, powerful, destructive forces are at work in the 
Middle East, tearing apart societies, provoking a massive 
migration, and threatening the very existence of established 
states.
    None of this is news to anyone who pays even cursory 
attention to events in the region. But what may be less 
apparent is the extent to which Arab Gulf States are involved 
in the conflicts and the crises that are roiling the Middle 
East.
    In unprecedented ways, the states of the Gulf Cooperation 
Council are employing their wealth and modern military arsenals 
to try to achieve outcomes that serve their interests from 
Libya to Egypt, and from Syria to Yemen. What drives them and 
what the United States can do to influence their behavior are 
questions worthy of careful examination. I am very grateful for 
the opportunity to contribute to your discussion of these 
issues.
    My own assessment may seem counterintuitive. On the face of 
it, the newfound assertiveness of the Arab Gulf States like 
Saudi Arabia and the UAE might well suggest a greater degree of 
confidence and maturity than seen in the past. While I would 
like to think this is the case, I strongly suspect that it is 
motivated at least in equal measure by a collective anxiety 
that flows from three major concerns: first, that the United 
States, long a guarantor of gulf security, is disengaging from 
the region; second, that a resurgent, relegitimized, and 
emboldened Iran will increase its efforts to destabilize Arab 
Gulf States; and finally, that the wave of political and social 
unrest that engulfed the Middle East in 2011 will make its way 
to gulf doorsteps, threatening the status quo and the very 
survival of the monarchies themselves.
    I will very quickly touch on each of these points, which I 
examine more closely in my written testimony.
    There is no doubt that the fundamental underpinning of the 
U.S. relationship with the Arab Gulf States is changing. Their 
oil for our security assurances has been the fundamental 
premise upon which the relationship has existed for years. But 
I think reports of the U.S. disengagement from the region are 
wildly premature. We are simply too deeply invested in the 
region and the strategic partnerships with our Arab gulf 
partners to walk away.
    Regarding Iran, I believe that its nuclear program is only 
the tip of the iceberg, the part that draws the most attention 
because it looms so large in the public mind. It is the threat 
that lies beneath that most worries our gulf partners, the 
financial and military support Iran provides to destabilizing 
political and armed insurgent movements in the region. This 
brings me briefly to Yemen because it is here that the Sunni 
Arab coalition led by Saudi Arabia has chosen to draw a line in 
the sand and tell Iran that its interference in the region will 
no longer be tolerated, at enormous cost to the Yemeni people 
and the nation's already fragile infrastructure.
    It has never been my view that the Houthi movement comes 
with a ``Made in Iran'' label. In fact, I would argue that the 
support provided by former Yemeni President, Ali Abdullah 
Saleh, has been much more decisive than whatever Iran has made 
available.
    Finally, let me address the response of Arab Gulf States to 
internal pressure for political reform, which is two-pronged. 
On the one hand, they are monitoring internal dissent carefully 
and, to one extent or another, taking steps to quash it. At the 
same time, there are efforts afoot to provide citizens of the 
gulf monarchies with a modest level of political participation 
through elections, in particular to municipal councils that 
have only limited authority.
    Mr. Chairman, while in the long run it is a good thing if 
Gulf States are disposed to engage more readily in finding 
solutions to regional crises, we can also hope they become 
proficient in using tools other than military hardware to do 
so. One of these tools might be the political will necessary to 
agree to a framework within which GCC states and Iran engage in 
direct talks on those issues that divide them.
    Of course, nothing would please the United States more than 
to see Iran's engagement with its neighbors and the West 
increase, whether through trade, investment, academic 
exchanges, or tourism. Every contact is seen as one less brick 
in the foundation supporting the conservative theocratic regime 
in Tehran, a sort of slow-motion soft-power transition to a 
more open, inclusive form of governance.
    Thank you, Mr. Chairman, and I look forward to elaborating 
on these points with you and the members of your committee.
    [The prepared statement of Ambassador Seche follows:]

           Prepared Statement of Ambassador Stephen A. Seche

    Mr. Chairman, Ranking Member Cardin, members of the committee. As 
we meet today, powerful, destructive forces are at work in the Middle 
East, tearing apart societies, provoking a massive wave of migration 
and threatening the very existence of established states. None of this 
is news to anyone who pays even cursory attention to the region, but 
what may be less apparent is the extent to which Arab Gulf States are 
involved in the conflicts and the crises that are roiling the Middle 
East at this moment.
    In unprecedented ways, states of the Gulf Cooperation Council are 
employing their wealth and modern military arsenals to try and shape 
outcomes that serve their interests from Libya to Egypt and from Syria 
to Yemen. What drives them, and what the U.S. can do to influence their 
behavior, are questions worthy of careful examination, and I am very 
grateful for the opportunity to contribute to your discussion of these 
issues.
    My own assessment may seem counterintuitive. On the face of it, the 
newfound assertiveness of Arab Gulf States like Saudi Arabia and the 
UAE might well suggest a greater degree of confidence and maturity than 
seen heretofore. And while I would like to think this is the case, I am 
persuaded that it is motivated at least in equal measure by a 
collective anxiety that flows from three major concerns:

          (1) That the United States, long the guarantor of Gulf 
        security, is disengaging from the region;
          (2) That a resurgent, relegitimized, and emboldened Iran will 
        increase its efforts to destabilize Arab Gulf States;
          (3) That the wave of political and social unrest that 
        engulfed the Middle East in 2011 will make its way to their 
        doorsteps, threatening the status quo and the very survival of 
        the monarchies themselves.

    Allow me to briefly address each of these points:
    There is no doubt that the nature of the U.S. relationship with the 
Arab Gulf States is changing. The fundamental underpinning of that 
relationship--their oil for our security assurances--has come into 
question as a result of the shale revolution in this country, and a 
profound reluctance on the part of the United States to send American 
troops into combat in the region yet again.
    This administration, correctly I believe, has decided that the more 
appropriate response is to provide essential support to our regional 
partners--including the Arab Gulf States--that will allow them to 
attend to their own security needs: form their own alliances, build 
their own capacity and police their own neighborhoods. This is both a 
reasonable and strategically sound approach. In support of this policy, 
the United States has committed itself to work with the Arab Gulf 
States to prevent and deter external threats and aggression. This 
commitment was reiterated just last week when Secretary Kerry met in 
New York with the GCC Foreign Ministers under the rubric of our joint 
Strategic Cooperation Forum.
    This forum is the mechanism identified to tackle the range of 
security issues discussed last May when President Obama hosted GCC 
leaders at Camp David. Expedited arms transfers, robust 
counterterrorism cooperation, enhanced cyber and maritime security, and 
establishing an interoperable ballistic missile defense are some of the 
key areas where work is being done in support of this strategic 
partnership.
    As we proceed to intensify our engagement with the GCC member 
states, it is important to bear in mind that the GCC is not a monolith: 
its six member states bring their own perspectives to the table, and 
the challenges inherent in overcoming these differences and developing 
a collective and comprehensive approach to defense and security should 
not be underestimated. President Obama has gone so far as to authorize 
the sale of U.S. arms to the GCC itself, which is a laudable 
aspiration, but hardly a practical option: the GCC is not NATO. It has 
no procurement authority, and each member state makes its own defense 
decisions. Even the effort to establish a peninsula-wide ballistic 
missile defense will run into strong headwinds, given that it will 
require extensive sharing of sensitive military data among the GCC 
states.
    My point is that the United States is so deeply invested in the 
long-standing, strategic partnerships with the nations of the Arab Gulf 
that it is difficult to imagine it disengaging. In this respect, I 
strongly suspect that our partners in the region are less worried about 
the U.S. packing up and departing than they are about the U.S. 
introducing its new friend.
    Which brings me to my second point of neuralgia for the Arab Gulf 
States: Iran.
    Let me suggest at the outset that, in very important respects, 
Iran's nuclear program is only the tip of the iceberg here. It is the 
part that draws the most attention because it looms so large in the 
public mind. But in fact, the biggest threat that Iran poses to its 
neighbors is that which lies beneath the surface, if you will: the 
financial and military support it provides to destabilizing political 
and armed insurgent movements in the region, much of which is delivered 
sub rosa.
    And in this regard, Iran has been doing quite well influencing 
events in the region without having to rely on a nuclear weapon. Its 
support for the regime of Bashar al-Assad in Syria has been decisive in 
the regime's ability to cling to power.
    In Iraq, elements of the Iranian Revolutionary Guard Force have 
been fighting side by side with the Iraqi Army to dislodge Islamic 
State fighters. And in Yemen, the armed Shia insurgency known as the 
Houthis, which Iran has supported in a variety of ways for years, still 
controls the capital, Sanaa, and other portions of the country, in 
spite of having suffered serious military setbacks in recent weeks.
    All that said, it is also quite true that the Arab Gulf States are 
unhappy with the Iran agreement but again, for reasons that have little 
to do with any nuclear weapons threat the agreement is supposed to 
neutralize.
    Their unhappiness flows from other concerns:
    First, that the agreement will provide Iran with a financial 
windfall as sanctions are lifted that is estimated to be in the 
neighborhood of $100 billion, which Iran will turn around and use to 
fuel greater instability in the region by arming insurgents, and 
bankrolling subversion of the Gulf States. The Obama administration 
argues that, having been cash-starved for so many years, the regime in 
Tehran will be under enormous pressure to use this money to rebuild the 
nation's infrastructure and improve services to its citizens. Given the 
amount of money potentially in play, I suspect there will be a little 
bit of both, although it is important to bear in mind that sanctions 
relief is calibrated to take place as Iran meets its obligations under 
the nuclear agreement.
    Another area of concern for the Gulf States is that, courtesy of 
the nuclear agreement with the West, Iran has just managed to negotiate 
its way out of its political and economic isolation back into the 
mainstream of regional affairs. Look at Iran's political leadership, 
jetting around the region, calling for direct talks with its neighbors, 
proposing four point plans to resolve the conflict in Syria, and 
generally acting like statesmen when, in fact, their government's 
deeply destabilizing behavior continues unabated.
    This brings me to Yemen, because it is here, in one of the poorest 
countries on earth, that the Sunni Arab world, led by Saudi Arabia and 
the UAE, has chosen to draw a line in the sand and tell Iran that its 
interference in the region will no longer be tolerated. In fact, Yemen 
is now the most prominent example of a more assertive Arab Gulf 
intervening militarily to protect its perceived security interests in 
the region. The Saudi-led coalition entered the conflict on March 26, 
when it began a campaign of air strikes against Houthi rebels that 
continues to this day, a full 6 months later. And while the momentum on 
the ground seems to have shifted decisively in favor of the coalition 
and their efforts to reinstate the government of exiled President 
AbdRaboo Mansour Hadi, it was not until the UAE and Saudi Arabia 
introduced ground forces into Yemen that the tide truly began to turn.
    Which is not to say that the air strikes did not contribute to the 
shifting momentum, but they clearly were insufficient on their own to 
make a decisive difference. And the truth is, the Saudi-led air 
campaign has wreaked enormous damage on Yemen's civilian population and 
its already fragile infrastructure. In a nation of 23 million people, 
the United Nations now estimates that 1.5 million have been driven from 
their homes and are now internally displaced. A full 80 percent of the 
population, according to the U.N., needs urgent humanitarian 
assistance.
    What this suggests to me is that Saudi Arabia was focused on one 
thing as it began its air campaign, and it was something other than the 
physical well-being of Yemen's citizens. Saudi Arabia was focused on 
sending a clear and unequivocal message to Iran, which it believes is 
the driving force behind the Houthi rebellion. This is by no means a 
universally held belief, however. Certainly, it is not clear to me that 
the Houthi insurgency comes with a Made-in-Iran label. While I do not 
doubt that Iran has provided political, financial, and military support 
to the Houthis, we must remember that they are a 100-percent Yemeni 
phenomenon, and it is almost certainly true that the military support 
provided to them by former Yemeni President Ali Abdullah Saleh has been 
much more decisive than whatever Iran has made available.
    Most worrisome now is that the Saudi coalition, buoyed by recent 
gains on the ground, and intent on avenging the death of coalition 
forces (45 Emirati soldiers and 10 Saudis died in a single incident on 
September 4), are not terribly interested in sitting down to negotiate 
an end to this conflict. The United States has been encouraging the 
Saudis to reconsider its position, and not for altogether altruistic 
reasons. We have supported the Saudi-led coalition since its air 
campaign began, providing logistical and intelligence support, and 
munitions. I have some sympathy for the U.S. in this case, though: the 
Saudis clearly were intent on moving swiftly and forcefully against the 
Houthis, and I believe the administration decided it was better to be 
in the tent with the coalition where it could perhaps exercise some 
influence over the way it conducted itself, than outside where it had 
no influence at all. Clearly, things have not worked out as planned, 
and where the conflict in Yemen is headed simply is not clear. The 
worst outcome, in my estimation, would be a ground assault on the 
Yemeni capital, Sanaa, a city of 2 million people, with sizeable 
pockets of support for the Houthis, and former President Saleh. I 
fervently hope that before the conflict reaches this stage, all the 
parties will step back and realize that the only certain outcome of 
continued combat is greater suffering for the Yemeni people, and will 
decide to negotiate terms for an end to the conflict and a viable 
powersharing arrangement.
    Finally, let me address concerns among Arab Gulf States that by the 
voices calling for political and economic reform in the region will 
eventually become those of their own citizens, who will insist on a 
greater role in the fundamental decisions of governance that affect 
their lives. With the exception of Bahrain, the only Arab Gulf State 
with a restive, and majority, Shia population, there is no real 
evidence of major domestic fault lines that would generate alarm at 
this time. That said, all the Arab Gulf States are monitoring internal 
dissent carefully and, to one extent or another, taking steps to quash 
it. At the same time, there are efforts afoot to provide citizens of 
the Gulf monarchies with some level of political participation through 
elections. In some cases, this participation is tightly controlled, as 
with the elections held over the weekend for the UAE's Federal National 
Council. In other Gulf States, elections focus on municipal councils, 
which have only limited ability to make substantive changes. That said, 
it is worth noting that, for the first time, women will be able to 
participate as both voters and candidates in Saudi Arabia's municipal 
elections set for December.
    Clearly, America's Arab gulf allies feel much more liberty to 
undertake external defense and security initiatives than they do to 
make difficult domestic-reform decisions. While in the long run it is a 
good thing if Gulf States are disposed to engage more readily in 
finding solutions to regional crises, we also can hope they become 
proficient in using tools other than military hardware to do so. One of 
these tools is the wealth of the GCC states, and we are seeing an 
increasing willingness on their part to use this wealth as an 
instrument of economic statecraft. And in spite of the fact that a 
post-sanctions environment will see Iran reenter the regional and 
international economy as a serious competitor, a number of GCC states 
should be able to realize clear benefits from economic ties with Iran.
    For one thing, the economic isolation imposed on Iran by sanctions 
have made its economy heavily driven by domestic demand, which has 
represented an average of 85 percent of real GDP over the last 5 years, 
according to the IMF. This suggests a lot of pent-up interest on the 
part of Iranians to invest their money abroad, which would certainly 
contribute to the growth of regional economies. Trade, real estate, 
banking and infrastructure are all areas likely to benefit from these 
linkages.
    Of course, nothing would please the United States more than to see 
Iran's engagement with the West increase: whether through trade, 
investment, academic exchanges, or tourism. Every contact is seen as 
one less brick in the foundation supporting the conservative, 
theocratic regime in Tehran, a sort of slow-motion, soft-power 
transition to a more open, inclusive governance.
    Like it or not, the Iran that emerges from this nuclear agreement 
is going to very quickly reestablish itself as a major influence in the 
region. To my way of thinking, the most sensible way for the Arab Gulf 
States to respond to this new reality would be to consider an approach 
to Iran other than the very heavy reliance on acquisition of greater 
firepower that is currently underway. While this may provide short-term 
comfort, in the long run what is needed is a vehicle that will allow 
the Arab Gulf States and Iran to discuss the issues that divide them 
and, in doing so, obviate the need to resort to military means to 
resolve their differences.
    While the exact framework for these negotiations can be discussed, 
their value would seem to be clear, particularly given the deep 
skepticism with which Arab Gulf States view Tehran's intentions, and 
Iranian regime concerns that its neighbors in the region are conspiring 
with the U.S. to hasten its demise.
    What seems indisputable is that the dynamics in the Gulf region are 
undergoing dramatic change, as a resurgent Iran faces off against its 
increasingly anxious and assertive Arab neighbors. In between stands 
the United States, exercising what influence it enjoys--and it is 
limited--to try and ensure that competition in this instance does not 
become conflict.

    The Chairman. Thank you very much.
    Secretary Long.

 STATEMENT OF HON. MARY BETH LONG, FOUNDER AND CHIEF EXECUTIVE 
            OFFICER, METIS SOLUTIONS, WASHINGTON, DC

    Ms. Long. Chairman Corker, Ranking Member Cardin, and 
members of the committee, thank you very much for the 
invitation to be here today.
    As the former Assistant Secretary of Defense who was 
responsible for strategies in the Middle East, I learned the 
critical importance to the United States of our close and 
continuing relationship with our gulf Arab partners. 
Unfortunately, those close and continual partnerships are 
strained today, in part because of the implicit policy that 
they view by the United States to allow Iran to build its 
regional power and its influence much along the lines of the 
Ambassador's comments and to be soft on Iran as far as its 
political, asymmetric military and other activities that for 
our important gulf neighbors are at least if not more critical 
than its nascent nuclear weapons advances.
    The United States primary concern in Yemen is that of a 
growing perception if not reality that Iran is using this 
conflict in order to increase its power and that the Gulf 
States have decided they are to respond, again, much along the 
lines of my colleague.
    The Chairman. If I could, I would have to say it is 
actually amazing to hear his presentation. I know most people 
understand we have a witness and this side has a witness. It is 
amazing how on all these issues, the alignment has been as it 
has been.
    But anyway, keep going.
    Ms. Long. Absolutely.
    But I believe ?????? are making a mistake. Yemen is not a 
model for United States counterterrorism efforts, as asserted 
by the White House a very short time ago, and we are missing 
the strategic.
    Yemen is just the most recent piece of Iran's efforts to 
increase its power and the most recent development of the 
Russian-Iranian alliance is worrisome not only in Yemen but in 
Syria. And the linkages between these regional participants and 
what is happening in both those conflicts is something I 
believe that is inimical to U.S. interests and something that 
we need to examine.
    The reentry of Russian military into the region suggests 
that things could get much worse in Yemen in the near term, 
particularly to the extent that there is a division of labor 
between Russia and Iran on what is happening in Syria and that 
the role of Hezbollah in Iran is increased, forcing the 
division of labor. And the nascent show of the Houthis willing 
to come to the table will be delayed even further because of 
operating space or reprieve that they will be getting from Iran 
and/or Hezbollah.
    In fact, it was a Russian Tochka missile that killed the 45 
Emiratis earlier this fall. Russia has long had strategic 
interests in Yemen and its use of Iran to further those 
interests is something we ought to be thinking about, 
particularly in light of what is happening in both Iraq and 
Syria.
    This is particularly true as the administration does not 
appear to be willing to call out either Iran or Russia for what 
they are doing in the region, nor to understand Russia and 
Iran's full motives, as I believe the GCC does.
    Thus far in Yemen, the political situation is at best a 
stalemate. The big question is how far must the Houthis be 
pushed in order to negotiate and is it really a Houthi decision 
any longer, given the myriad players who are now involved not 
only on the ground but also in supplying weaponry, advice and 
support, including the United States.
    Arguably, the clearest benefactors of the ongoing conflict 
are Al Qaeda in the Arabian Peninsula and ISIS, al-Qaeda being, 
according to the State Department and the Center for 
Counterterrorism in the United States, still the only 
organization taking advantage of the power vacuums that play 
along the fears of the Sunni tribes who are convinced that Iran 
would be allowed to run its course, and it must turn to either 
AQ or ISIS in order to counter the Iranian-backed Shia and 
Houthis.
    What is the nature of the conflict? It is asymmetrical. It 
employs missiles and incredibly increasing political meddling 
not unlike the political meddling in Bahrain, Iraq, Syria, and 
Lebanon. All of these are at least as worrisome as the Iran 
nuclear aspirations.
    Of note, Saudi Arabia has over 1,500 kilometers of shared 
border with Iran that are at great risk
    The American interests in Yemen are legion. We must build a 
strategic deterrence to containing Iran in the gulf. We must 
increase and demonstrate our partnerships to the GCC in much 
more than just selling of weapons as requested. The Gate of 
Tears and freedom of navigation along and among the parties 
that are using the Strait of Hormuz for the majority of their 
oil and gas, not just the United States but China and elsewhere 
that have severe impact on American jobs and economy, must be 
considered in what we are doing in Yemen and in the region.
    So what is the endgame? The endgame for the United States 
should be augmenting our very little on-the-ground information 
and visibility on what the Gulf States are doing, alleviating 
the human suffering and poverty by helping the GCC target 
better, and marginalize and mitigate the collateral damage 
performed by the military activities. We should expedite the 
sales of precision-guided weaponry, targeting, and other 
assistance to the gulf Arabs in order to help their military 
actions be more effective and reduce the number of casualties.
    Although our efforts to work through the GCC and the Arab 
League may have been a good idea, they were premature. Neither 
organization is able nor equipped to deal with acquisitions nor 
our expert regulations and laws. And our bureaucracy alone is 
delaying and deterring military support that is necessary to 
the ongoing conflict as we speak.
    Finally, we need to lead internally. The President and 
administration has been opaque in what are United States 
interests in Yemen, and we need to come up with a policy and a 
strategy that articulates our aims and goals.
    And finally, current limitations on our naval deployments 
in the gulf as a result of sequestration and the lack of 
operational funds due through the BCA is limiting and tying our 
military's hands to be effective support. We can do better.
    Thank you very much.
    [The prepared statement of Ms. Long follows:]

               Prepared Statement of Hon. Mary Beth Long

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for inviting me to testify today. I am honored to 
be here to speak about the U.S. role and strategy in the Arabian 
Peninsula, particularly Yemen. While Yemen looks better now than it did 
a few months ago, we are--at best--looking at a stalemate that does not 
appear to lead to a political resolution anytime soon. Make no mistake: 
Yemen is not a model for U.S. counterterrorism efforts, as asserted by 
the White House spokesman in March of this year. Washington must 
provide a clear expression of U.S. interests, clarify our policies to 
our allies and our enemies, and follow through with timely and decisive 
action.
    The primary U.S. concern in Yemen is that Iran is using the 
conflict there to increase its power in the region. Washington must 
help contain Iran and its regional meddling, which counters U.S. 
interests. The U.S. should also be concerned about Iran and Russia 
working together in Yemen and the broader Middle East. At this time, we 
do not understand their strategy or respective roles in what appear to 
be a division of labor. Washington must also recognize that Yemeni 
territory and islands are critical to U.S. interests. In particular, 
the global ``chokepoint'' at the Bab el-Mandab (``Gate of Grief'') is 
the gateway to virtually all Suez Canal traffic. Finally, it is 
important to note that the threat posed by terrorists and extremists in 
Yemen is likely a far greater risk to the U.S. and its Gulf allies than 
ISIS currently appears to be.

  <bullet> As an Iranian official said earlier this year, ``We are 
        everywhere now: Syria, Iraq, Lebanon, and Palestine.'' Yemen 
        should be on that list, though Iran may be keeping a low 
        profile.
  <bullet> The Russian-Iranian alliance suggests that the situation in 
        Yemen could get much worse in the near term. It is a clear 
        continuation of their aggression in other parts of the Middle 
        East.
  <bullet> The Bab el-Mandab is not only a key passageway for U.S.-
        bound energy, but also to other economies upon which our jobs 
        and economy relies.
  <bullet> Yemen is still home to the ``single most active extremist 
        organization planning attacks against the U.S.'': Al Qaeda in 
        the Arabian Peninsula (AQAP), according to State Department and 
        the Counter Terrorism Center.
  <bullet> The rise of ISIS in Yemen will only make that worse.

The current status of the war in Yemen is thus: the pro-Yemen 
Government coalition faces a political stalemate in Yemen although with 
recent military success.

  <bullet> A timely political solution to the war in Yemen is needed to 
        save lives and avoid further humanitarian strain in the 
        country. The U.N. is trying to push negotiations between the 
        Yemen Government and the Houthis, but progress appears to be 
        stalled. The Bottom Line question is how far must the Houthis 
        be pushed militarily to feel compelled to negotiate?
  <bullet> The Saudi-led coalition of 10 or more countries is making 
        some progress, having pushed the Houthis out of Aden and moving 
        north toward Sanaa.
  <bullet> A significant byproduct of the internal chaos is a security 
        vacuum that AQAP and, to a lesser extent, ISIS are exploiting. 
        They are portraying themselves as the protectors of Sunnis 
        against the Shia Houthis and Iran. The Sunni coalition is 
        offering a counter to that dangerous narrative.

Russia and Iran have partnered to advance the Houthis' interests in 
Yemen as part of a broader Middle East strategy of aggression. 
Washington does not fully understand how Iran and Russia are 
cooperating regionally--they appear to have a strategy and we do not. 
In Yemen, there appears to be a tacit division of labor.

  <bullet> The most recent development is evidence of an Iranian-
        Russian alliance in Yemen, in addition to their alliance in 
        Syria and Iraq. Early indications are that their goals may be 
        inimical to Washington's and its allies' interests. The 
        Russian-Iranian alliance suggests that things could get much 
        worse in the near term, particularly to the extent that 
        Russia's more overt role provides the Houthis with operating 
        space or reprieve.

      <all>  What was likely a Russian Tochka missile killed 45 
            Emiratis fighting in the pro-Yemeni Government coalition in 
            Yemen earlier this fall. The missile was either supplied 
            directly from Russia or delivered from Syria through Iran, 
            according to a Hezbollah official. These missiles require 
            military guidance to use correctly so it is likely the 
            Houthis have either Russian or Lebanese Hezbollah 
            assistance.
      <all>  There is also reporting that Russia met with Houthis about 
            future financial alliances prior to the beginning of 
            coalition airstrikes.

  <bullet> The Obama administration does not appear to be willing to 
        call out Russia for its military activities in the region and 
        elsewhere. There is a relationship between what Russia is doing 
        in Syria and what Russia is doing in Yemen and we need to be 
        realistic about what that is.

The Obama administration has declared that we support the pro-Yemen 
Government coalition, but has not adequately explained to the American 
people what are the U.S. interests at stake. A simple answer is that we 
support the coalition efforts in Yemen because coalition countries 
share our concerns about Iranian influence and terrorism in Yemen.

  <bullet> Containing Iran is critical.
  <bullet> Yemeni territory and islands are critical to the global 
        ``chokepoint'' at the Bab el-Mandab (``Gate of Grief''), which 
        is the gateway between the Red Sea and the Horn of Africa--
        virtually all Suez Canal traffic.

      <all>  Freedom of Navigation of the Strait of Hormuz. There is 
            lots of talk of U.S. energy independence, but the bottom 
            line is somewhere around 25-30 percent of our oil comes 
            from the GCC countries and must pass unimpeded through the 
            Gulf (Iran is at 4 percent).

  <bullet> Key passageway not only for U.S.-bound energy, but also to 
        other economies upon which our jobs and economy relies.
  <bullet> Most powerful threat to Saudi Arabia and other southern Gulf 
        States.

There are substantial challenges to U.S. and other operations in Yemen.

  <bullet> The U.S. withdrew most of its Embassy staff from Yemen, 
        meaning we have very little visibility on the ground.

      <all>  The United Nations has reported that 86 percent of those 
            killed civilians (2,000 dead/4,000 wounded).
      <all>  There are 1.5M displaced and 90 percent in urgent need of 
            humanitarian assistance.

  <bullet> We are supporting the coalition through the provision of 
        targeting information (though we do not select targets), 
        intelligence, 45 intelligence analysts, logistical and search 
        and rescue support, and weapons.
  <bullet> The U.S. relationship with GCC countries, which make up the 
        bulk of the coalition, is weak.

      <all>  The U.S.-GCC summit at Camp David in May failed to do the 
            most important thing: close the credibility gap between the 
            White House and our GCC partners. Washington's 
            contributions to the coalition in Yemen could be a 
            confidence builder and put these important relationships on 
            firmer ground.

The U.S. made the following assertions of support at the May U.S.-GCC 
summit:

  <bullet> On Yemen, the parties emphasized the need to move rapidly 
        from military operations to a political process and support 
        U.N. humanitarian efforts (including a Saudi pledge of $274M to 
        U.N. humanitarian efforts in Yemen);
  <bullet> Security Cooperation--provision of military equipment and 
        training, and joint exercises;
  <bullet> Security Assurances vs. Guarantees

      <all>  ``We [the U.S.] are prepared to work jointly with our GCC 
            partners'' was considered a rather ``tepid'' response and 
            simply sustained misguided efforts to work through the GCC/
            Arab League on a unified Arab force. The idea of a united 
            GCC block is evidence of our failure to understand how the 
            region works. Notably, Washington insisted on an agreement 
            that the GCC ``consult'' with the U.S. if it plans to take 
            military action beyond its borders.

  <bullet> Ballistic Missile Defense (and a revival of the decades-old 
        goal of a GCC-wide Missile Early Warning System);
  <bullet> Military Exercises and Training Partnership, including more 
        Special Operations Forces cooperation and training with member 
        states;
  <bullet> Arms Transfers Fast Tracking (and, again, a misguided effort 
        for GCC-wide sales after a GCC procurement capability is 
        established);
  <bullet> Maritime Security;
  <bullet> Counter-Terrorism;
  <bullet> Foreign Terrorist Fighters;
  <bullet> Counter-Terrorism Financing;
  <bullet> Critical Infrastructure and Cybersecurity;
  <bullet> Countering Violent Extremism;
  <bullet> Counter proliferation.

The most important thing that will come out of that meeting is if it 
will restore U.S. credibility with our Gulf allies. Timely, robust 
follow through is critical.
    Bringing the war in Yemen to a close as swiftly as possible and 
containing negative Iranian influence will require that Washington 
provide a clear expression of our interests and our policies to our 
allies and our enemies, and follow through with timely and decisive 
action. Washington should:

  <bullet> Help the coalition determine its end game and how to achieve 
        it definitively. The U.S. should increase our support to the 
        coalition--particularly in the areas of deterrence--by 
        providing additional intelligence, logistics and weapons 
        support. We should also provide additional combat support, 
        particularly that which supports ground troops' safety and 
        better directs lethal activity, thus reducing civilian and 
        economic collateral damage (note: precision guided weaponry 
        saves lives);
  <bullet> Strengthen U.S. efforts to intercept Iranian and Russian 
        support, particularly weapons, to the Houthi rebels and 
        Hezbollah in Yemen. We cannot continue to tie one hand behind 
        our back by failing to have sufficient military equipment and 
        activities funded and deployed;
  <bullet> Help secure the Saudi border;
  <bullet> Put pressure on Iran and Russia diplomatically and 
        otherwise, including by routine coalition exercises;
  <bullet> Lead internally (and lead abroad) by explaining why we 
        should ramp up our support to ``moderate'' opposition in Syria 
        and remove the constraints on our military leadership to 
        provide unfiltered advice on best courses of action;
  <bullet> Fix current and future limitations on our naval deployments 
        to the region as a result of sequestration and the lack of 
        operational funds due to the BCA.

    The Chairman. Thank you both for your testimony.
    If I could, I will just briefly, Madam Secretary, you are 
referring to a request that the Saudis have right now for 
guided weaponry to refurbish what they have been using in 
Yemen. I guess there is a concern if we do not act upon that, 
they will have to resort to dumb bombs, which in every way will 
be more damaging to the civilian population.
    I think that is the specific issue you are referring to. Is 
that correct?
    Ms. Long. Yes, Mr. Chairman.
    The Chairman. If I could, you also spoke to something else. 
I would like both of you to respond. You mentioned that we need 
to demonstrate our support for the GCC in Yemen, so I would 
like to ask you both this. Are we involved in the way that we 
are there to demonstrate support for the GCC or is there some 
national interest in Yemen that we care deeply about, if you 
would elaborate? Is it more about us demonstrating support or 
is it because Yemen itself has in itself a national interest to 
our country?
    Ambassador Seche. If I may, Mr. Chairman, I will begin and 
then let Mary Beth finish where I end off, and probably better.
    But I do believe that we are there at the moment 
principally because of our alliance with Saudi Arabia. When 
Saudi Arabia decided in March to go in with the coalition to 
begin the bombing campaign, we did not get a whole lot of 
advance warning. We did not get a question as to whether we 
thought it was a good idea or not. We were told fundamentally 
that Saudi Arabia had decided there was such a crisis on its 
southern border, it had to move forcefully and decisively to 
route the Iranians and their proxies, the Houthis, as they see 
the world.
    So we went in I think believing it was better to be in the 
tent than not in hopes that we could somehow chart the course 
with the Saudis, so this expedition of theirs might turn out 
better in the process.
    I think the instinct was right. I think the execution has 
been less than good. I think what we have now is kind of a 
tiger by the tail, where we are now complicit in what the 
Saudis are doing with the coalition in Yemen without a real 
ability to change the course of what they are doing. We are 
trying very hard to persuade them, I think, to see their way 
clear to get the parties to the conflict to the negotiating 
table, but it has not been easy.
    I do believe the Saudis and the coalition members are so 
enthused at the moment by what they see in terms of their 
victories on the ground, they are reluctant to say let us call 
a halt to this and give the Houthis an advantage. So they went 
to press harder even perhaps.
    I hope that they do not have in mind, in this context, an 
attack on the capital, Sanaa. I think that would be an absolute 
disaster. It is a city of 2 million people with deep pockets of 
support for Houthis and former President Saleh.
    I cannot imagine what a ground assault would do, other than 
lead to more deaths and more carnage in Yemen. I think it is 
very ill-advised.
    Ms. Long. I do not disagree. I actually think it is that, 
but it is more complicated.
    There are three reasons why----
    The Chairman. It is what--but it is more complicated?
    Ms. Long. More complicated.
    The Chairman. It is what?
    Ms. Long. It is our support to Saudi Arabia and our support 
to the gulf, but I think there are two other very key 
interests.
    The first are U.S. national interests. I mean, for all our 
talk of being energy independent, the fact of the matter is 
approximately 30 percent of our oil and gas does come through 
either the Strait of Hormuz or the Gateway of Tears, and that 
is not going to change in the near future. To the extent it is 
not our oil and gas, China and others are still highly 
dependent on the oil and gas they transfer through there. And, 
as you know, the Gate of Tears also controls all the traffic 
that goes through the Suez Canal.
    Secondly, it is not only us supporting the gulf and the 
Saudis, but it is us showing Iran and us showing Russia that we 
are serious about hegemonic behavior in the region, and we do 
intend to draw a line and that military involvement, 
particularly to the extent in Yemen that we are now seeing, is 
not acceptable to United States interests and it is something 
that we do not support.
    So it is really those three things, our interests, support 
to the gulf, messaging to our enemies.
    The Chairman. Do you think members of the GCC, without our 
leadership, have demonstrated effectiveness in Yemen?
    Ms. Long. I think the GCC has done two things. I think they 
demonstrated their lack of confidence that we would lead and 
join them and thus the reason they have gone out on their own 
and delayed in informing us. And I think that they have 
demonstrated that they could have remarkable military success.
    I do not think that you would find any argument either the 
U.S. or in the GCC that this is not something that is going to 
be won militarily and it is the political piece that is 
missing. And there we do have a lack of--certainly, the goals 
have been ambiguous and the means have been even more difficult 
to determine.
    The Chairman. Mr. Seche.
    Ambassador Seche. If I may, Mr. Chairman, I think what we 
have seen in Yemen is that the coalition went in without an 
endgame. They went in really very hot. They were in a state 
seeing what they did see, in terms of the Houthis taking over 
territory willy-nilly heading south toward Aden. I think what 
we have seen now is that they have learned what we have 
learned, that you cannot do this entirely by the air. You 
cannot do this just by airstrikes alone. You cannot win a 
conflict.
    So they had to introduce ground forces, and at some 
considerable cost. There was just an attack this morning that 
has killed more Emiratis and more Saudis, and this is following 
the one in early September in which 55 Emiratis and Saudis were 
killed as well.
    So I think it has started to really dawn on our gulf allies 
that there is more to this than demonstrating to the world a 
very resolute Saudi Arabia taking care of its own defense 
needs. I think what we have seen, to some extent, is a very 
inexperienced Saudi Minister of Defense with the reins given to 
him by his father in this case, and asked to control and manage 
and orchestrate a very complicated issue in Yemen militarily.
    As you suggested yourself earlier, Mr. Chairman, it has not 
yet gone as they might have thought.
    The Chairman. I think they are learning some of the same 
lessons we have learned for the last 15 years.
    As far as what our involvement should be with them for a 
better outcome, what would the two of you suggest?
    Ms. Long. I think three things.
    I apologize. We are both so polite.
    The Chairman. And you are both on the same page. It is very 
refreshing.
    Ms. Long. I think from a concrete standpoint, we need to 
help them more aggressively with targeting, not only in order 
to help them but to be more effective militarily, but we have 
to start mitigating these collateral damages and human rights 
issues.
    The Chairman. And we would do that how?
    Ms. Long. There are means of lasing targets on the ground 
that I do not believe that we are employing. The White House, 
there seems to be some ambiguity as to the extent to which we 
are involved in targeting, whether we are preparing packaging 
and helping prioritization. I would leave it to our military 
experts and our commanders to discuss the detail but, 
certainly, more involved targeting.
    And as we all know from what happened in Kunduz, it is not 
a perfect exercise. But we can certainly do better, and we need 
to help them do better, provide them with munitions that are 
precision-guided and that can be lased and targeted.
    I think one of the big mistakes we are making, and the one 
I hear the gulf complain about the most, is this idea of 
working through the Arab League and having a unified Arab force 
and working through the GCC. It is just misguided. The GCC was 
not set up to do procurements. The GCC was not set up for end-
user certification. It is an idea whose time may come, but now 
is not it. We need to be working bilaterally.
    And although the GCC and the United States talked at Camp 
David about expediting exports, I think what has happened in 
the follow-through is it has devolved to midlevel or 
bureaucrats at my level that are working as much and as well as 
they can through the bureaucracy, but this is not an easy 
bureaucracy, and it needs leadership and attention at the 
highest most levels.
    We can increase our intelligence. Our intelligence is still 
weak. We have very little visibility on what is going on on the 
ground. That visibility, frankly, can also help us monitor what 
the gulf----
    The Chairman. We have very little visibility of what? Say 
that again.
    Ms. Long. On what is going on on the ground. We are relying 
primarily through third-party and other reporting. We can do 
better.
    My understanding is from satellite tasking and other 
measures, we are extremely limited in the region and that a lot 
of our information could be shaped by those who are providing 
it to us.
    Finally, exercises, we have talked a lot at Camp David 
about performing exercises to send signals. We have not really 
put any on the table. Part of that are the limitations that are 
imposed by our military commanders because of resources, in 
part because of the way the budget and sequestration have 
evolved, and our naval presence that is available even to go to 
the gulf.
    I have a further list in my written testimony.
    The Chairman. If you would be brief, I am over my time, and 
I want to try to set an example.
    Ambassador Seche. What I would say, Mr. Chairman, at this 
point is if the Saudis, and I believe they do, are looking to 
us for a refill on munitions they need to continue to fight in 
Yemen, I would really put that offer on the table with 
considerable strings. One of them would be that we need to have 
the Saudis really facilitate some kind of venue in which talks 
can begin.
    I think the Saudis have been very slow, as I said earlier, 
to see that this is a moment at which talks could be profitable 
and productive and perhaps bring an outcome to this conflict. I 
think they see this as a military victory right now. I think we 
need to make it clear to them that there is no military victory 
here and that only some kind of negotiation with all the 
parties to the conflict can bring this to a rapid close.
    And they need to allow President Hadi, because they really 
are the ones who are behind him dictating the terms he will 
set, to sit down with the Houthis and others in the conflict 
and really come to some kind of a power-sharing agreement that 
will allow everyone to be inside a government and be able to 
resolve their issues within Yemen themselves.
    The Chairman. Thank you both very much.
    Senator Cardin.
    Senator Cardin. Thank you both. I certainly agree with your 
final comment, as I said in my introductory remarks.
    It is clear that security in this region very much depends 
upon U.S. leadership, not just because we have the military 
capacity and are able to bring a coalition together for 
effective results, but also because of the universal values 
that America represents--something that is desperately needed 
in this region.
    So I want to first quote from President Obama in an 
interview he gave this past April where he observed that in 
many countries across the Middle East populations ``are 
alienated, youth that are underemployed, an ideology that is 
destructive and nihilistic, and in some cases, just a belief 
that there are no legitimate political outlets for 
grievances.''
    So part of our job is to work with these states and say, 
how can we build your defense capabilities against external 
threats, but also how can we strengthen the body politic in 
these countries so that the Sunni youth feel that they have 
something other than ISIL to choose from?
    I think the biggest threat that they face may not be coming 
from Iran invading. It is going to be from dissatisfaction 
inside their own countries.
    That is a tough conversation to have, but it is one that we 
have to have.
    I state that because we should look at what happened in 
Egypt. The United States was criticized by the GCC that we were 
not strong enough in defending the Mubarak regime. We were 
criticized internationally that we were on the wrong side of 
history, in regard to the rights of the people of Egypt. Are we 
going to be on the right side of regional security in the 
Middle East, if we are not effective in bringing about 
political reform in the GCC?
    We see protests. We saw the protest in Bahrain in 2011, the 
Shia.
    The question is: How can we effectively engage our partners 
in the region on their external security threats in a way that 
we can also strengthen their internal rights for their 
citizens?
    Ambassador Seche. Senator Cardin, I think you have touched 
on what is probably the most neuralgic point for our gulf 
allies, which is political reform. This is an area where we 
have not been able to engage with them as fully and effectively 
as I think we all would like.
    I think we tend to be deferential. We tend to depend upon 
them as security allies. Therefore, we let a lot of the 
internal conditions in the Gulf States go by without sitting 
down and pressing points about what we think is necessary for 
long-term stability, as you said yourself.
    I give President Obama credit for speaking publicly about 
the need to have these conversations because they are 
essential. And I think no partnership can really thrive without 
a full scope of discussion about all the elements of security 
and stability in those nations. And certainly, civil society, 
how they can cultivate a civil society that is supportive of 
the regime and not looking to tear it down, is a fundamental 
issue for them to come to grips with.
    I think so often our gulf allies see civil society and 
reform movements as a threat to their longevity. It does not 
need to be that way at all. I think they tend to be, in more 
cases than not, loyal to the regime. But they do want to see a 
little breathing space and a little room where they can become 
viable, functional parts of, if not a democracy, at least 
something that is more representative and something that is 
more inclusive.
    Ms. Long. I do not dispute the need to engage our gulf 
allies and our allies worldwide on the role of civil society 
and engagement of the peoples. However, as a more pragmatist, I 
think right now that the problems are not in the gulf and the 
problems are not in Saudi Arabia due to internal conflict. And 
in fact, the GCC will tell you that one of the reasons it is 
operating in Yemen is in order to give the Sunni there some 
alternative other than ISIS and AQAP to protect their interests 
while they are believe that they are being forced out and 
limited in their exercise of their rights by the Shia-led 
Houthis, by the Iranians, and by other interlocutors who are 
limiting the Sunni ability to exercise their freedoms within 
Yemen, and that this is the line that they are drawing.
    Having engaged in the gulf countries for many years as one 
of the senior negotiators, I have actually found them 
remarkably willing to discuss the roles of civil society. The 
openness of the conversations has always been very full.
    I do not think that is the problem that we are dealing with 
now, as the region basically becomes a conflagration of Yemen, 
Iraqi, Lebanese, Syria and now nascent conflicts in other areas 
where there is actually battle engaging.
    Senator Cardin. I would just say that if I had that 
conversation with Egypt a few years ago, talking to our 
military and the military-to-military relationship between 
Egypt and the United States and how close that was, I probably 
would have gotten a similar answer.
    Arab Spring happened. People want freedom. It may not be 
the immediate issue, but it will emerge.
    If we do not use the opportunities we have to make those 
advances it will come back to hurt U.S. interests and security 
interests.
    I appreciate your compliments to President Obama, and that 
is why I quoted his comments. I am not aware of this being even 
on the agenda at the summit. I just think we make a huge 
mistake when we do not take advantage of opportunities to make 
it clear that we expect advances.
    We do not expect overnight change. We do not expect them to 
adopt an American system. We do expect them to adhere to 
international human rights. And in every one of these 
countries, there is need for significant improvement. And I 
think at our own peril, if we do not bring that up at times, it 
works against our long-term interests.
    I want to ask one more question, if I might, before my time 
expires, in deference to my colleagues. And that is, I would 
like to get your assessment as to how the GCC sees Russia in 
this region. Russia obviously has had an impact on Iran 
directly, and now in Syria, it is having a much larger military 
presence. There is some talk about Russia and Egypt getting 
together and having some discussions.
    My question basically is, from the GCC point of view, how 
do they see their relationship with Russia evolving, based upon 
the reliability of the United States?
    Ms. Long. I think they are not sure. I think they see Putin 
as a stronger leader who is more decisive than our White House. 
So in some respects, they are attracted to him. I also think 
they are attracted to him because Putin and the Russians often 
represented an alternate means to military sales when we were 
unwilling. As you see, Egypt, I think, is one of the examples.
    I think now that they are seeing Russia's involvement in 
Syria, Iraq, and possibly Yemen, they are not sure of Russian 
goals. And they are offended and frightened by the fact that 
Russia appears to be aligning itself with Iran.
    I am sorry, I am not sure that they have decided, frankly.
    Senator Cardin. Can we change that equation?
    Ms. Long. We need to.
    Ambassador Seche. I think that Mary Beth is right on that 
issue, Senator. I think that what our gulf partners see now in 
Russia is a betrayal to some extent, because they had made 
overtures to Russia. The Saudi Defense Minister did go there in 
July. They were looking to make some kind of relationship. I 
think Russia is a useful foil in some ways for the Gulf Arab 
States, as they look to say to us, ``We can find other markets. 
We can find other friends. We have other strategic alliances we 
can form. It is not just you, Washington. We can go to Moscow. 
We can go elsewhere.''
    I do not think fundamentally that is a threat to the 
primacy that we enjoy with our Arab Gulf allies. I think that 
this is something that is useful, and the Gulf States tend to 
spread their wealth around, in terms of purchases of military 
supplies. They have always done so. They do not adhere to a 
one-market relationship with any country. But I do not think it 
is a serious courtship.
    I do think what we have seen now with Russia coming in and 
siding itself with the Assad regime and with Iran and Syria is 
a deep, deep distrust of Russian motives. I think we see in 
Saudi Arabia just today clerics by the dozen speaking out 
against Russia and what it has done basically to punish the 
Sunni population in Syria beyond where they have already been 
punished by the Assad regime. I think this is going to be the 
downfall of Vladimir Putin's adventure in Syria, that he is 
going to be seen as really working against the Sunni Muslim 
population around the world.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Perdue.
    Senator Perdue. Thank you both for your lifetime of 
service.
    I want to go back. I have made two trips to the Middle East 
this year and talked to most of our GCC partners and four or 
five heads of state over there. I want to get more involved in 
Russia. But first, I want to talk about the Iranian 
involvement, specifically in Yemen.
    Just last month, there was an interdiction of a private 
vessel with arms, serious arms, going into Yemen. Yet we still 
have some sanctions relative to Iran's activity.
    Can you be more specific? I would ask both of you this 
question. And the second part of that question specifically is: 
What is Iran's on-the-ground involvement today in Yemen? 
Secondly, How does the military presence in Syria affect our 
future position vis-a-vis what we are trying to do in Yemen?
    Ms. Long.
    Ms. Long. On the first point, interdiction, I think, 
statistically, if you go back and look, United States-led and 
international interdiction over the last year in particular 
against Iranian and other vessels going into Yemen has been 
low. The Gulf States will tell you that is one of the examples 
of us giving the Iranians a bye, because we have not been 
enforcing even the existing sanctions that are applicable to 
Iranian military activities, particularly to Yemen, and that 
there have been instances where we have backed off. So I am not 
sure that we know or anybody really knows the extent.
    Certainly, weaponry, the Russian missile incident against 
the Emiratis, anyone will you tell you, much like the incident 
in Ukraine, successfully firing one of those missiles and 
having it hit the target with the precision that it did is no 
small feat. It is highly unlikely those were done by Houthis or 
tribesmen. It is very likely that they were done either by 
Hezbollah, who had access to those weaponry and training in the 
past, or by Russians or Iranians who were on site providing 
strategic and other help.
    I think that the role and the numbers of IRGC or Quds 
Force, the Revolutionary Guard of Iran, who are participating 
in Yemen, has done nothing but increase. There are some 
analysts who think there is a tacit division of labor that is 
occurring between Iran and Russia in Iraq, Syria in Yemen, 
whereas in one place someone is the weapons supplier and in the 
other place someone is the guy on the ground. Russia takes the 
air in Syria; Iran takes the ground in Yemen.
    But I do not think we have good visibility on the numbers 
and types except that it is increasing.
    Ambassador Seche. Senator, I think there is no doubt that 
Iran has for years supported the Houthi movement politically, 
financially, and militarily. This is what Iran does. We know 
this around the world. Whenever they see a besieged Shia 
community anywhere, they come to its assistance. They do it 
anyway they can. They always do it sub rosa if possible, 
because they do not want to have any fingerprints on it, but 
they are there. And they are there in Yemen, and they are in 
Bahrain, as Mary Beth said earlier.
    But I think that, again, what we see in Yemen is a 
nationalist movement, the Houthis, the Shia. The Zaydis have 
been in Yemen for thousands of years. The Houthis are just a 
portion of that community. They have grievances that have 
endured for years and years. They have had six conflicts with 
the government of Ali Abdullah Saleh when he was President over 
a period of several years.
    So there is a lot of grievance that the Houthis bring that 
did not need Iran to provoke them or to spur them on. They have 
enough of their own angst and their own anxieties to last a 
lifetime.
    So I think what we see, though, is Iran taking advantage of 
a situation, exploiting it as best they can. I do not think 
that the Iranians are there in any really decisive way. As I 
said earlier, I think they are there. But I think the Houthis 
have been able to do what they have done because they were 
speaking to a population in Yemen that was as disenfranchised 
as they were.
    And it was not a sectarian conflict, I believe, until Saudi 
Arabia entered. Then it became very pronounced. Then it was 
Sunni Saudi Arabia against Shia Iran.
    Prior to that, it was the Houthis with a political message 
that really resonated across all sectarian lines in Yemen. And 
it was: There is corruption. There is an ineffective 
government. There is a better future of reform. But no one is 
giving it to us, despite all the time we spent following 2011 
trying to get to that point.
    Senator Perdue. You both have spoken about the underlying 
crisis over there. That is really the religious-sectarian 
conflict, Sunni on Shia, Shia on Sunni. In certain countries, 
the minority is in control, and so forth. So you have 
continuing conflict there.
    When you look at it as it relates to nation-states, though, 
the concern that I have is that we do not have a strategy. So 
when it gets down to the detailed tactics of supporting allies 
there relative to the Obama doctrine in the region, I am at a 
loss for really how we execute against that.
    So my question is, as these strategic partnerships have 
failed us in the region, relative to the Obama doctrine laid 
out 1.5 years ago, I think at one of the military academies, 
How do we go forward with these partnerships that now have 
great doubts about our intentions in the area? Without an 
overlying strategy long-term, how do they even begin to think 
about a GCC close-in strategy relative to Syria and Yemen?
    And one last derivative of that is this proliferation 
threat. I am really very concerned about that after talking to 
these Foreign Ministers and some of the heads of state. 
Particularly after the JCPOA, what can we do to combat that, 
because that is another derivative of our lack of long-term 
strategy?
    Ms. Long. I think the most important thing we can do is 
become engaged, clearly send signals that we have not left the 
region, that we are not going to leave the region, that there 
are consequences to the proliferation of weapons, and there are 
consequences to entities from outside the region basically 
taking what was an internal conflict--and I agree with my 
colleague regarding the Houthis--but hijacking it so that it is 
has morphed well beyond anything that we would recognize 10 
years ago.
    Senator Perdue. Sorry to interrupt. I heard the chairman 
asked you earlier, how would you do that? And the answer was 
more specific arms delivery. But are there any other things 
that we could do to execute what you just said?
    Ms. Long. Yes. We need to increase our presence in the 
gulf, get back to the naval carriers that we had a few years 
ago before we had to reduce them because of sequestration.
    Senator Perdue. And that creates a real problem. To have 
any kind of foreign policy in the Middle East, we have to have 
a strong military.
    The problem is, right now, we are about to be in a position 
where we have the smallest Army since World War II, the 
smallest Navy since World War I, the smallest Air Force ever, 
and we are not done yet.
    I am not trying to make this a political comment, but I 
really am trying to point out and get you to answer how serious 
this threat is if we cannot back up what you are suggesting, in 
terms of interdicting, our position there.
    Ms. Long. We cannot. And the way that we are headed with 
our congressional impasse on budget and sequestration and the 
reduction in our forces, particularly to our naval forces, we 
will not be able to in the foreseeable future. And that is 
huge, because our credibility is gone, because we are not 
participating. We are not following through.
    Senator Perdue. And you do not think that is lost on Mr. 
Putin or the ayatollah either, do you?
    Ms. Long. Of course, it is not. That is why Russia and Iran 
have expanded their participation, both militarily and 
politically, in all these conflicts that should have been and 
could have been contained at least in some respects. They could 
have been at least mitigated from creeping into the other 
region had we had a strong U.S. foreign policy and a plan that 
we were executing. And frankly, we have and had neither.
    Senator Perdue. Ambassador, I am out of time, but with your 
forbearance?
    The Chairman. Sure, absolutely.
    Ambassador Seche. Just briefly, Senator. I think you make a 
very valid point. I think we probably are not going to increase 
our presence in the gulf. We have a very solid presence there 
now. We have a number of military bases, Al Udeid. We have the 
Fifth Fleet in Bahrain. We have Al Dhafra in the UAE. We have 
40,000 service men and women. This is a very strong statement 
of our support and strategic partnership in the region.
    I think that our gulf Arab allies are worried not so much 
because they think we are going to walk away from there, but 
because they think we are going to introduce Iran back into----
    Senator Perdue. Could I interject just one thing though? 
What we are about to do in Afghanistan, that also is not lost 
on the leaders in the area. We are about to cut in half, 
basically, our troops over there. That is what is being 
recommended right now by the administration. That is not lost 
on the people there.
    So the change in direction is as serious to me as the total 
numbers. Would you disagree with that?
    Ambassador Seche. I do not think it is changing direction. 
This has been plotted out as a course that we are going to take 
for years now. I think a lot of circumstances have prevented us 
from moving more resolutely toward taking those steps on a 
timeline we had initially projected.
    So I think what we are seeing now are basically events 
forcing us to step away from some of these conflicts. I think 
that is fair. I think part of what the President has looked to 
do with our gulf allies is build their capacity, build their 
ability to do their own self-defense in ways that are 
functional and fair to them, and fair to us as an ally.
    We cannot be there, and we cannot project our force around 
the world as we did once in our history. We have to let those 
regional powers, with our support, with our munitions, with our 
modern weaponry, with our training, and with our political will 
and our political skills, engage in those conflicts and in 
those crises effectively.
    Senator Perdue. Mr. Chairman, only one comment. I do not 
disagree with that. It is the timing of when you do that, and 
the vacuum that you leave behind. We have had one really solid 
lesson in that recently in Iraq, and I hope we do not do it 
again in other areas there. Thank you.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your service and your testimony.
    Ms. Long, you said in your written testimony, and I will 
quote from it, ``Russia and Iran have partnered to advance the 
Houthis' interest in Yemen as part of a broader Middle East 
strategy of aggression. Washington does not fully understand 
how Iran and Russia are cooperating regionally. They appear to 
have a strategy, and we do not.''
    You further go on to say the Obama administration does not 
appear to be willing to call out Russia for its military 
activities in the region and elsewhere. There is a relationship 
between what Russia is doing in Syria and what Russia is doing 
in Yemen, and we need to be realistic about what it is.
    So as we see Russia unfolding in Syria, and regardless of 
what one may think about what may be the ultimate consequences 
for Russia as a result of that, what would you have the 
administration do that it is not doing now that evokes those 
comments in your written testimony?
    Ms. Long. I think actually the issue with Russia in Iran 
actually is not unlike the problem that we have with Russia in 
Ukraine, where it is the most recent example of Russian use of 
Russian irregulars, of Russian weaponry, of Russian targeting 
that went unresponded to not only by the United States but by 
NATO. We danced around for quite some time actually identifying 
Russian forces in the Ukraine, in Crimea, and others.
    This is yet another step in that direction where Russia at 
first under the auspices of solidifying its long-term basing in 
Syria made noises about moving Russian equipment in. The next 
thing we know, it is missile defense equipment. The next thing 
we know, it is tanks. The next thing we knew, there is other. 
This has been a creeping problem where it finally took Russian 
planes flying over Turkey and the incidents of just last week, 
or maybe the week before, where our Secretary of Defense noted 
Russian involvement in flying sorties and lack of coordination 
within 24 hours of us having met with the Russian leadership 
about coordinating these things.
    This is a pattern of activity. It is not Russia protecting 
Russian citizens in the Baltic. It is not Russia protecting 
just its base in Syria. There are other motivations here, and 
we need to be very clear about those.
    Senator Menendez. So what should we do?
    Ms. Long. We need to be clear about them and call them out 
publicly. There need to be consequences. There could be 
hearings, frankly. There could be United Nations resolutions 
about examining Russia's role, about examining the equipment 
and the level of technology that is moving into Syria. We could 
unequivocally back the Gulf States regarding not having Assad 
play any role in any kind of reconciliation that may come in 
the future. We could actually more forcefully complain about 
Russian targeting of moderate Islamic fighters that we have 
trained.
    Although that has come out a little bit in the U.S. paper, 
the President has not made any statements that I am aware of. 
We have not made any international resolutions or call for the 
unjustified targeting of our trained, moderate----
    Senator Menendez. So while I appreciate that, certainly, 
anything at the U.N., which might be with the purpose of trying 
to focus attention, would be vetoed by Russia or the Security 
Council. But it might be worthy of just driving the point of 
where Russia is.
    I found it a little amazing to see the Secretary of State 
next to Foreign Minister Lavrov, side by side, talking about 
deconflicting. First of all, I do not think it was necessary at 
a press event. Certainly, the sense while deconflicting as a 
reality may be desirable, the image it sent is somehow an 
ascent to Russia being there, at least at that point in time, 
which I thought should have been very clear that there are no 
circumstances, at least unless there is a coalition effort and 
Russia is committed to working with us as well as the coalition 
that exists, to fight against ISIL.
    But the Secretary of State and the Foreign Minister side by 
side talking about deconflicting and nodding about 
deconflicting, it boggles my imagination.
    Let me ask you this. The reason the GCC countries were 
brought to Washington to have a summit is why? What is the core 
reason? It was not because there was tumult at this given time, 
right? It was not even Yemen, per se.
    Ms. Long. No, frankly, the political skeptic in me thinks 
it was two things. Number one, we wanted the GCC nations not to 
interfere with the Iranian nuclear agreement that was still 
being examined by the Hill and the U.N., and we wanted to 
reassure them in order to buy their silence. Number two, we 
were aware that they were skeptical regarding our overtures 
broadly to Iran, and that we wanted to at least publicly appear 
to be assuaging those and actually committing to them that we 
would do something in parallel to the Iranians.
    Senator Menendez. So if, in fact, the reason we bring the 
GCC countries is to reassure them of something that to some 
degree we have instigated, forgetting about one's views on the 
nuclear agreement, I get concerned when I read the President 
saying in an interview, I think it was with Tom Friedman, that 
Iran should be a regional power.
    Now, if you are the GCC countries and you hear the 
President of the United States say Iran should be a regional 
power, I think you have a lot of reason to be concerned, which 
then brings us to the summit and what happened and what has 
transpired since.
    So I read the statement that basically we are willing to 
work with the GCC countries. But at the end of the day, that is 
far from even a security assurance much less a guarantee. We 
gave security assurances to the Ukraine in the Budapest 
memorandum. We wrote it down and told them, give up your 
nuclear weapons, and we will make sure that we protect your 
territorial integrity. That did not work out too well for 
Ukraine.
    So there is not even that here, as far as I can tell. There 
is no assurance, much less a guarantee. So what is it, in fact, 
that at this point the gulf countries have from us, other than 
the attempt to warm their concerns and try to make them feel 
more comfortable? At this point, from both of you, I would say, 
what have you seen take place other than a conference of words? 
What have you seen take place? What needs to take place?
    If we are talking about weapon sales just as one dimension 
of that, at some point you bump up against the qualitative 
military edge that we are obligated, and I believe we should 
be, to Israel.
    So how do you meet those challenges? Could you both comment 
on that?
    Ambassador Seche. Senator, I think my recollection is it 
was a fairly explicit assurance delivered at Camp David, that 
any external aggression against our gulf allies would be met by 
us with force. So I believe that we did try to make that 
reassurance very public and very clear, because I think you are 
right. If it is only a question of bringing them over here so 
that we can have them walk outside and say, yes, we support the 
JCPOA, that is not exactly going to do anything in the long 
run.
    But I think there is a sense here now that a framework and 
a structure have been created to take up the issues. It is not 
just arms sales. It is training. It is cybersecurity. It is 
maritime security. It is the integrated ballistic missile 
defense in the peninsula. All of which is key to the Gulf 
States being able to defend themselves with our support, with 
our technique, with our technical support, with our expertise, 
and with our weaponry.
    Senator Menendez. So you believe we gave them explicit 
assurances?
    Ambassador Seche. I believe we did.
    Senator Menendez. And how was that memorialized?
    Ambassador Seche. I believe in the communiques that were 
issued after Camp David, and I also think that when Secretary 
Kerry met in New York on the margins of the U.N. last week in 
the Strategic Cooperation forum with the GCC Foreign Ministers, 
it was reiterated.
    Senator Menendez. One final one, Mr. Chairman.
    Ms. Long.
    Ms. Long. I have a very different view. I think the gulf 
allies walked away, and it is very difficult to find any kind 
of explicit assurance. We certainly attempted to provide vague, 
broad statements, but it was far short of the explicit 
guarantees that they asked.
    While the list of things that we talked about and the 
discussions were broadly presented, none of them were new. All 
of those issues have been discussed in our strategic dialogues 
on annual basis.
    What the gulf allies, I think, walked away with was an 
agreement with us that a peaceful Iran in the region that is a 
responsible international player is a good thing, that they 
understand that our implicit if not explicit policy is to 
return Iran to its proper role in the region, that they believe 
that that role is a threat to them, and that there is very 
little detail as to what we would do and what we are willing to 
do currently to deter Iran above and beyond the nuclear weapons 
issue.
    Senator Menendez. Thank you.
    Senator Cardin. This is the subject to interpretation, so I 
am not trying to say it is determinative, but the joint 
statement coming out of the Gulf Cooperation Council at Camp 
David stated the United States is prepared to work jointly with 
the GCC states to deter and confront any external threat to any 
GCC state's territorial integrity that is inconsistent with the 
U.N. Charter. In the event such aggression or threat of such 
aggression, the United States stands ready to work with our GCC 
partners to determine urgently what action may be appropriate, 
using the means at our collective disposal, including the 
potential use of military force for the defense of our GCC 
partners.
    That was the official statement that came out.
    Senator Menendez. Mr. Chairman, if I may, I would like to 
say to the distinguished ranking member, I am prepared to work 
with you on many things. But being prepared to work with you 
and actually making--most time between us, it does happen.
    Senator Cardin. As I said, it may be subject to different 
interpretations, in the beginning. I just wanted to put in the 
record the specific language that came out, because it did say 
specifically territorial integrity, and it did say specifically 
all options, including military.
    Senator Shaheen. Mr. Chairman?
    The Chairman. With divisions occurring between my 
Democratic friends, I am going to turn to Senator Flake.
    Senator Shaheen. Mr. Chairman, can I ask before that we can 
put a date on what Senator Cardin just read?
    Senator Cardin. It was May 14, 2015. Why not put the entire 
statement in the record?
    Thank you, Mr. Chairman.

[Editor's note.--The statement mentioned above can be found in 
the ``Additional Material Submitted for the Record'' section at 
the end of this hearing.]

    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you for the testimony.
    Let me continue with the JCPOA and the effect of it. We had 
a number of hearings over the past couple months to study 
JCPOA, and there was grave concern among any of us that while 
the nuclear side of the agreement may be tight, may be a net-
plus, many of us had the concern that we might lose some of our 
leverage when it came to Iran's malign behavior in the region. 
What was going on in Yemen was going on long before the JCPOA 
was finalized, and some of these activities obviously have been 
going on.
    But what is your view there? Do we have the same leverage 
we had before, or will we worry even more that we will give 
Iran pretext to forgo their obligations on the nuclear side of 
the agreement, if we challenge their behavior in the region?
    Mr. Seche.
    Ambassador Seche. Senator Flake, I do not think that the 
JCPOA, the way it is enforced, is going to encourage Iran one 
way or another. I think their malign behavior has predated this 
agreement, we all know, by years and years. It will continue. 
This is not going to be a disincentive to them.
    There are separate reasons for them to want to go with the 
nuclear agreement. Release of sanctions is the one big one, and 
the ability to regain some economic footing in this world of 
ours really for them is the big prize, and basically that sense 
of being relegitimized, being allowed to come back into the 
community of nations.
    I also think they understand that if the behavior that they 
are involved in now in destabilizing their neighboring states 
continues, that is really going to be an impediment to the kind 
of work we are looking to do with them.
    This had always been the problem, I think, right? We have 
had one track, which is the JCPOA, and that is not involved in 
the behavioral issues. The behavioral issues are what really 
drive our gulf partners crazy, because that they see is not 
impeded at all by the agreement. But the agreement has value 
inherent in and of itself.
    We have to find a way to address the behavioral issues 
apart from what the nuclear agreement can do for us. I think 
what the nuclear agreement does on balance is a very solid 
piece of work. But it does not help us one way or another with 
the behavioral issues. That is something we are going to have 
to do with Iran, with their neighbors, with the partnerships we 
have around the world to try to persuade Iran to give this up.
    I think, again, this is probably, to some extent, wishful 
thinking, but the hope is that as Iran opens up to investment, 
as students travel back and forth, as windows get open and 
fresh air blows in, Iran will begin to feel that, and it will 
want to become part and parcel of this international community.
    I do not see that as a policy, however. That is more like 
hope.
    Senator Flake. Ms. Long.
    Ms. Long. I have a different view, in that I actually think 
the Iran nuclear agreement actually greatly impedes our 
leverage.
    Number one, it is what Iran wanted most. And to the extent 
that we exercise any leverage over its bad behavior prior to 
the agreement, now having achieved the agreement, we no longer 
have that leverage.
    More importantly, as a practical matter, the lifting of 
sanctions will provide Iran with a windfall of tens of billions 
of dollars, some portion of which could be used to support the 
IRGC or its other external meddling.
    The real problem is, with or without the JPOA and the 
leverage, I think the gulf countries would say, to the extent 
we have any leverage, we have been unsuccessful in using it. 
And, frankly, given our willingness to give Iran a bye and 
treat Iran nicely with that with the hope, if not a strategy, 
with the hope that if Iran's cool air that blows through its 
economic and political systems, that it will become more 
moderate, that that is unrealistic. And even if we had 
leverage, we would be unwilling to use it for fear of not 
opening up these windows to allow the moderates to come forth.
    Senator Flake. Specifically, a concern that was raised, you 
talked about once we open the door, once we relieve the 
sanctions, the concern was raised during the discussion of the 
JCPOA that imposition of those sanctions, Iran believes 
imposition of any of the same sanctions that we had before--we 
all know the only effective sanctions really particularly 
imposed unilaterally by us are the ones on their central bank 
that make it difficult for them to move money around. If we 
were to do that or threaten that, then they would take it, as 
they said already, as a violation of the agreement on our part.
    So the concern that many of us had is that we would lose 
leverage that we currently have, certainly. And if we have not 
been able to deter them from this behavior, we certainly will 
not be able to do it later.
    So it is great concern that we have, because they have said 
flat out, imposition of these sanctions would be a violation on 
our part.
    So with regard to Yemen, specifically, have we seen any 
change at all since the signing of the JCPOA that somebody 
could tag to, ``Well, hey, Iran may be more reasonable now''? 
There has been no change in behavior on either side really in 
that conflict, has there?
    Ambassador Seche. I have not seen anything material that I 
would connect to the JCPOA at all. Again, I do not think that 
the Iranians are calling the shots for the Houthis. I think the 
Houthis have made their mind up, and what they have done is 
based on their own perception of their interests and where they 
think they can be.
    Once again, I think that former President Saleh was much 
more of a support for them than any external support Iran 
provided.
    Once again, Iran is exploiting the situation as best it 
can, but it is not, at the moment, driving the train that the 
Houthis are on. The Houthis are their own bosses. They will 
make their own decisions based on their own calculations. That 
is my judgment.
    Senator Flake. Thank you, Mr. Chairman.
    Senator Cardin [presiding]. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to the committee members.
    I have not been impressed with the efforts of the GCC 
nations against ISIL. Do I see it wrong?
    Ambassador Seche. I do not think that the GCC has come to 
grips yet with Sunni extremism, armed Sunni extremism, 
terrorism. I think that even when you look at Al Qaeda in the 
Arabian Peninsula, when you look at ISIL in Yemen, I do not 
believe they see these organizations as the most serious threat 
they face.
    Senator Kaine. They see the Shia threat as greater.
    Ambassador Seche. They see Iran as the principal threat 
they face. I believe to some extent they see that there is an 
opportunity for them to use the Sunni extremist organizations 
as a tool that they can use to counter the threat posed to them 
by Iran, in their perception. So I do not think that is 
necessarily something we are going to see them jump at.
    Senator Kaine. Secretary Long.
    Ms. Long. I do not disagree. I think the GCC nations see 
Iran and the Shia militia in Iraq and the border security to be 
much more of a threat than ISIL. I think their response on ISIL 
is complicated in part because of the physical location of 
ISIL, at least traditionally in Syria, and the disagreement 
among various other players in Syria as to the role of Assad 
continuing and how they would play with the various other 
organizations, including the al-Nusra organizations and Qatar's 
role. So it is little bit more ambiguous.
    Senator Kaine. The willingness of the GCC nations, Sunni 
nations, to tackle Sunni extremism, I mean obviously now goes 
back many years and continues to be a real concern. I think 
their worry about the Shia is very legitimate. I think their 
indifference to some of the Sunni extremism is incredibly 
troubling.
    I do not see the GCC nations doing that much to deal with 
Syrian refugees. Am I wrong about that?
    Ambassador Seche. No, Senator. In fact, none of the gulf 
countries have signed the U.N. Convention on Refugees, so none 
of them are under an obligation at this point to respond.
    What they have done, and what they have claimed to do, is 
taken in a lot of Syrian citizens, Syrian nationals, and they 
have done so. But a lot of that happens via work permits. They 
come in and they work there. And they also then are vulnerable 
to having those permits suspended, and they can be sent out of 
the country.
    Senator Kaine. A lot of these refugees, they are Sunni 
refugees fleeing the Shia-allied Assad atrocities in Syria, but 
I am just not seeing a lot of activity.
    I compare that with the vigorous response of Saudi Arabia, 
for example, to the situation in Yemen. There is a capacity. 
There is a willingness. There are resources to act when they 
want to. It causes me some significant concern.
    I was in Kuwait just coincidentally 24 hours after the 
massive Sunni bombing of the largest Shia mosque in Kuwait. 
Sunni extremists, ISIL claimed to do that bombing. Now at least 
the leadership in Kuwait really worked hard to try to 
desectarianize this by having a memorial service in the largest 
Sunni mosque and bringing the Shia families there.
    But I am just not seeing a lot of that throughout the 
region. I am seeing an indifference to the Sunni extremism and 
a concern, it could be legitimate, about the Shia influences.
    You indicated you did not think, Ambassador Seche--and I 
think, Secretary Long, you agreed, too--you did not think that 
the Yemen conflict was sectarian at its origins, but now it has 
kind of become sectarian because of the squaring off of the 
Saudi and Iranian proxies.
    You would agree with me--let me not ask a leading question. 
Does the United States have a position theologically, Sunni 
versus Shia?
    Ambassador Seche. I do not believe that we do, Senator. I 
think what we are looking at is conduct, behavior, ability to 
work with other communities, reach across the aisle, reach 
across the table, and really prosper in some fashion that 
benefits all of us, so it is a win-win situation.
    Senator Kaine. So we should not have a position in a 
theological or sectarian debate?
    Ambassador Seche. I cannot imagine why.
    Senator Kaine. We should not take positions that would be 
viewed even unwittingly as expressing a preference in a 
theological debate. Would you agree with me?
    Ambassador Seche. I cannot imagine why we would.
    Senator Kaine. Let us talk about Bahrain for minute. We 
have a huge military presence there in the Fifth Fleet. Talk to 
me a little bit about the current internal political situation 
in Bahrain and that ongoing instability with a small ruling 
minority that is Sunni, and a large Shia majority. Talk to me 
about whether that instability poses challenges to us in terms 
of the stability of the Fifth Fleet headquarters there in 
Bahrain.
    Ms. Long. The Shia majority in Bahrain is significant. It 
is also the largest trading and merchant class and has been 
historically.
    I think the bigger challenge, beyond the civil society 
issue that the Bahrainis are dealing with, with changes to some 
of their laws and perhaps incremental but too slow reforms, is 
their concern that Iran is using the Shia religious aspects of 
this largely I would not even say particularly religious group, 
certainly a mercantile group, for its own aims. And sorting out 
and separating the legitimate aspirations of the Shia and those 
that are being manipulated by Iran is a big problem.
    Senator Kaine. And we do not need to go into intel here. I 
mean, that is clearly happening, that Iran is manipulating the 
disaffection of the 70 percent of the population with respect 
to their place in the Nation of Bahrain.
    Do you worry about that instability down the road? You were 
Assistant Secretary of Defense, so especially as it affects the 
viability of our military operations in Bahrain?
    Ms. Long. I do not see any dangers to the Fifth Fleet in 
the near term. It is certainly a challenge that we need to push 
Bahrain to deal with, as we would any of our neighbors or 
colleagues.
    It is not very dissimilar to our military installations in 
Qatar. They all pose their own internal challenges. But I do 
not see any physical security threat in the near term.
    Senator Kaine. One last comment, just something that I do 
not think I thought of until I was listening to your testimony. 
It might have been you, Ambassador Seche, or it might have been 
both of you, who said that ultimately the solution in Yemen is 
not a military solution.
    We hear, with respect to Syria, we have heard again and 
again from the administration, the ultimate solution is not a 
military solution. Even with respect to the battle against 
ISIL, we have heard that while there is a huge military 
component, the deradicalization and other elements of it 
suggest that the ultimate solution is not a military solution.
    It kind of got me thinking about when we say at the front 
end that the ultimate solution is not a military solution, sort 
of what is, over time, the proven utility of use of military 
assets to promote an end-state when we all agree at the front 
end that the desired end-state is not a military solution? It 
seems like we are involved in a number of challenging conflicts 
right now where we say at the front end there is not a military 
solution here, but we nevertheless use and are asked to use 
more military assets to promote the nonmilitary solution.
    I am just doing a little bit of historical card sorting in 
my brain as to what the proof of the proposition is, that 
military assets play a major role in promoting the right 
outcome when we state at the beginning that the right outcome 
is not a military solution. That is just something I need to 
ponder.
    Thank you to the witnesses. Thank you to the Chair.
    The Chairman [presiding]. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here.
    I want to continue to explore some of the issues that 
Senator Kaine was raising, particularly the failure of some of 
the GCC countries to engage more directly in the threat that we 
believe that the Islamic states pose to not just the West, but 
to the Middle East as well.
    I cannot remember, I think it was maybe you, Ambassador 
Seche, who talked about the failure of Saudi Arabia to more 
directly put resources into the fight against the Islamic 
state.
    To what extent do we think that those people who have 
funded over the years some of the extreme fundamentalism, 
Muslim fundamentalists, are continuing to do that? And how 
overt are they? And how much do the governments in some of the 
GCC countries understand that that is going on or not?
    I would like both of you, if you could, to respond with 
what you know.
    Ambassador Seche. Senator Shaheen, I think that the issue 
of terrorist financing in the gulf has been a long-standing 
bone of contention between us and our gulf partners. I think 
that we have seen several of the states take measures to try to 
close off the avenues that were available.
    I do not think it has been government funding, by the way. 
I think these are individuals.
    Senator Shaheen. No, I understand that, but, certainly, in 
the past, the governments of some of those countries have known 
that that was going on.
    Ambassador Seche. Absolutely. They have, and they turned a 
blind eye to it, because it is useful for them domestically.
    But I think they have closed off some of the avenues. I 
still think that in Kuwait, in Qatar, for example, there are 
issues of terrorist financing. But I think the Treasury here 
does a very good job of tracking financial flows around the 
globe. I think we have been able to close off some of the 
opportunities that been available. Not fully, by any means. And 
it is complicated, and it will be a permanent conflict we are 
going to have to try to resolve.
    This goes along with the deradicalization. These are the 
toughest nuts for us to crack in this fight against ISIL and 
al-Qaeda and others, stop the flow of money, stop the flow of 
ideas, and stop the flow of individuals.
    You can do the combat. You can do the military side of it. 
But these other ones take a generation perhaps to really close 
it all off.
    Ms. Long. I would agree with the Ambassador. I also think 
that there is a perception the gulf countries are somehow 
trying to have it both ways with ISIL. That is not the case, at 
least the GCC primary countries, the Saudi Arabians and the 
Emiratis have been unequivocal in their horror and disgust at 
ISIL, particularly after the Jordanian pilot incident. And in 
fact, to some extent at least the Emiratis and the Saudis will 
tell you that some of their support for Egyptian border 
security has been an attempt to keep ISIL on the Libyan side of 
the border and not creeping into the Sinai and other places.
    I think the confusion and where it gets very difficult is 
in Syria, where we talk about the GCC as if it were one entity, 
which is our problem, not so much theirs, where there are 
differing views among the members as to who is supporting what 
particular factions of moderate or less than moderate 
opposition to the Assad regime.
    Senator Shaheen. Well, to what extent then has the conflict 
in Yemen diverted resources that GCC countries might be putting 
into the fight against the Islamic state, because they view the 
threat from Shia and what is happening in Yemen as more 
important? Is that a concern?
    Ambassador Seche. I think it has to be a concern. They do 
not have that many trained, efficient pilots, for example. They 
have a lot of hardware. The software is not at the point where 
it wants to be yet. So I think what we are looking at then is a 
focus in Yemen, which has been so single-minded that it has 
distracted them. And it has also sapped resources from their 
ability to address something like we have seen in Syria.
    I would love to see Saudi Arabia and the gulf countries now 
take a more muscular view of what is happening in Syria, given 
the Russian intervention, and make it very clear that their 
resources are now going to shift to Syria to make sure that 
they can push back against what Russia is doing in support of 
the Assad regime, which is anathema to the Gulf States, and 
they made it very clear that that is the case.
    Senator Shaheen. And to what extent do you think, given 
Russia's actions in recent weeks, that they might take another 
look at what is happening there and possibly divert some of 
those resources back to Syria?
    Ambassador Seche. I do not see it happening immediately, 
ma'am.
    Ms. Long. I agree with my colleague. For them, it is a 
priority of threats. Saudi Arabia is extremely vulnerable and 
always has been on that border, particularly now that the 
Houthis are now being pushed northern. There is an incredible 
threat, as far as they are concerned, while ISIS down into 
Syria, from a geographic standpoint, but also from a threat 
level standpoint, is just further away. Now there are many 
other countries involved in Syria and it is a much larger 
issue. So for them, particularly, it is a manpower issue. I 
think they will remain focused on Yemen.
    That is not to say that Saudi Arabia and the GCC are just 
involved with military activity. For example, by far the 
largest immigration and displaced person issues as a result of 
Syria are in Jordan and in Lebanon. Both Saudi Arabia and other 
GCC countries are funneling an incredible amount of money to 
help with those efforts, particularly in Jordan where basic 
human care is beyond the Jordanian Government's effort to 
provide with their Iraqi and Palestinian and other issues. It 
is something like doubled the population, or even more. So they 
are funding a tremendous amount of assistance there.
    Senator Shaheen. Actually, that is not what I have 
understood from people who are dealing with the refugee 
challenges as a result of Syria. It has been that while they 
committed a certain amount of money some time ago, in the 
current crisis, they have not been forthcoming with providing 
resources to provide further help to Jordan and Lebanon and to 
the refugees who are fleeing.
    So is that recent information that you have gotten?
    Ms. Long. No, I know, as in all things, what countries 
pledge and what they deliver, sometimes there is a lag. The GCC 
is not alone on that. I think the price of oil has caused some 
rethinking, as far as budgetary. But I am sure that, in any 
case, additional resources are needed.
    Senator Shaheen. Mr. Chairman, my time is up, but I just 
wanted to go back to a statement that one of you made about the 
GCC countries and their complete opposition to Assad continuing 
in his position, which has been the United States position and 
I think the allies' position with respect to the conflict in 
Syria.
    So given the stalemate that exists on the ground in Syria, 
and the unwillingness on the part of the international 
community to make any progress in that conflict, is there any 
reason to think we should reexamine that position and try to 
figure out how to end that conflict and then figure out what 
happens to Assad? I think about Bosnia, for example, where the 
priority became ending the conflict and then we went back and 
tried to hold the perpetrators responsible for what they had 
done. But given where we are and the stalemate there, should we 
be looking at reexamining the position that we have taken?
    Ambassador Seche. Senator Shaheen, I cannot imagine a 
circumstance under which the Syrian people, the Sunni majority 
in Syria, would accept Bashar al-Assad or anyone in the Assad-
Makhlouf clan at this point as a leadership figure. I think 
they have burned that bridge a long time ago. I think that he 
is so discredited and absolutely abhorred inside his own 
country now, the best we can do is hope he will find a way that 
he can exit as the situation starts to develop where there can 
be some kind of national salvation organization or government 
or something that would be seen as a fair vehicle that would be 
inclusive and would bring all the parties to the table but not 
Bashar al-Assad, however.
    Ms. Long. I agree.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you both very much.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ambassador Seche, I would like to turn your attention to 
the rapidly escalating humanitarian crisis in Yemen. We have 
heard very credible reports that it has grown dramatically 
worse since the start of the Saudi-led military campaign. In 6 
months, almost 3,000 civilians have been killed, over 1 million 
displaced, no humanitarian access, especially in the north, and 
a country on the brink of famine.
    Certainly, the external military intervention, which has 
been supported by U.S. logistics, intelligence, and arms 
supplies was a large escalation in the violence. And the 
tragedy there shows every sign of growing worse, much worse.
    Looking back to last March, it seems like we were on 
autopilot to reflexively support a Saudi decision to intervene 
without a full examination of the diplomatic alternatives. What 
are your thoughts on this now? What might have we done 
differently, in terms of diplomatic action, especially in 2014 
and earlier this year, to stop the erosion of the transition 
that was negotiated in 2012?
    Ambassador Seche. Well, Senator, you have touched on a very 
sensitive and difficult subject. I think hindsight is 20/20 and 
you look back now to what was happening as you say in 2014 when 
the Houthis went into the capital, Sanaa, and basically 
occupied and took over the reins of government at that time.
    That was a moment when I think it should have been clear to 
all of us that this was a phenomenon that was not going to go 
away, that they had basically restructured and reorganized the 
country's governance, for all intents and purposes, and they 
were in control. I think at that point, that was probably the 
last chance we had, anyone had, to go in and find some kind of 
negotiation, because the Houthis had not yet, I do not think, 
decided to sweep south all the way to the Gulf of Aden. But I 
do think at that point President Saleh counseled them to go 
ahead and finish the job now.
    Senator Markey. So should we have at that point urged the 
parties to renegotiate the transition right then, rather than 
this radical escalation, which we have now witnessed over the 
last couple of years?
    Ambassador Seche. Honestly, Senator, I do not think the 
Houthis at that time were ready to negotiate either. I think 
they were full of what they had seen as remarkable ease with 
which they swept south from their homeland up in Saada in the 
north just hard on the Saudi border. So they were prepared at 
that point to see how far they could go, and they got the 
encouragement they needed from the former President.
    This is a very difficult situation, to see how you can 
negotiate this.
    Senator Markey. What is our greatest leverage right now to 
try to force a negotiation between the parties? What would you 
recommend as the best strategy that we adopt to bring the 
parties to a table? What do you recommend to us?
    Ambassador Seche. Well, we do not have a lot of leverage. 
What I would use is the little leverage we have. As I said 
earlier, if the Saudis do want a brand new supply of modern 
weaponry to bring to bear in Yemen, I think we sit down with 
them and say, if you need this, we need to find out what your 
endgame is. How can you bring this to a negotiated end? What 
can be a resolution that is not going to depend upon a military 
solution?
    And as Senator Kaine said earlier, you say this at the 
outset, that there is no military solution. But what is going 
to be a negotiation? What is it going to look like? Who is 
going to be at the table? And who is going to be willing to 
make a concession?
    Neither party at the moment, I believe, is prepared to make 
the important concessions.
    Senator Markey. Okay, and you are not prepared to make a 
recommendation as to how we might get them to that point?
    Ambassador Seche. Well, we need to speak more publicly. The 
White House has recently begun to say that we are disappointed 
in the fact that the U.N. envoy talks that were scheduled have 
not taken place. This is a modest assertion for us to make 
publicly, but I think it is important.
    Senator Markey. You are saying it modest. Should it be more 
robust?
    Ambassador Seche. In my judgment, yes.
    Senator Markey. All right, what with the words be? Say the 
words that you want to hear spoken.
    Ambassador Seche. I am not sure I am ready to write press 
guidance at the moment, Senator. But I do think what we need to 
say is----
    Senator Markey. You are not sure of what?
    Ambassador Seche. That I can write press guidance at the 
moment. But I think what we want to say is that there is an 
important, critical juncture we have reached here where the 
outcome at the moment is going to be more human suffering if we 
do not find a way to bring the parties to a table.
    Senator Markey. Ambassador, Secretary, I have been an 
advocate for increased cooperation with our security partners 
in the gulf with a particular emphasis on defensive systems. 
These most certainly include the kind of ballistic missile 
defense systems, such as the Patriot Advanced Capability-3, our 
PAC-3 missile defense system, and also advanced air and naval 
defense systems. I fear that our failure to strongly advocate 
diplomacy in Yemen over the past 2 years, coupled with our 
failure to urge restraint in the face of crises last spring, 
may put the viability of this critical partnership at risk.
    The Leahy Law prohibits U.S. security assistance and many 
forms of defense cooperation with forces that have engaged in 
gross violations of human rights. If reports are accurate, the 
Saudi indiscriminate targeting in the air campaign, and an 
overly broad naval blockade, could well constitute such 
violations.
    If the Yemen war grinds on the way it is going to 
apparently happen, we could continue to have indiscriminate 
targeting and an overly broad Saudi naval operation that 
obstructs humanitarian relief that would constitute gross 
violations of human rights under the Leahy law.
    What is your perspective on the risk this situation could 
present for the long-term viability of our critical security 
partnerships in the gulf?
    Ambassador Seche. Well, Senator, I think the loss of human 
life that we have seen so far in Yemen, and the infrastructure 
destruction, in my judgment, borders on a serious violation of 
international law. I think that what we need to do with our 
allies, Saudi Arabia, the UAE, is really figure out from them 
how they see their way out of this. They must have some thought 
that they have given to how this is going to end, and we need 
to find out if that is viable, if it is feasible, if we can 
support that.
    If we cannot, then I think we need to find a way to try to 
distance ourselves from a conflict that has no end and the only 
outcome is more human suffering.
    Senator Markey. So, again, what diplomatic actions would 
you recommend to ensure respect for human rights in Yemen as 
this conflict continues, given the role that we are playing in 
providing logistical support for the Saudis, so that we inject 
those sets of values into our relationships with the Gulf 
States?
    Ambassador Seche. Given the conflict at the moment and the 
fact that it is ongoing, I do not advocate a public discussion 
of this issue. I think that the Saudis and our gulf allies have 
proven over the years that they respond best to a private 
conversation, to a sense of a friend coming to speak to them to 
provide counsel and advice, but not in a public eye, where 
there is a finger-wagging attachment to it. So I think we need 
to be very cautious, if we are going to use diplomacy on this, 
that it is private, it is forceful, and it is straightforward.
    I do not think we want to do a nuanced kind of demarche. I 
think we want to be very clear to them what we think the 
threats and the risks are that they are running at the moment.
    Senator Markey. Let me just ask, when you say that, you are 
saying that you want a nuanced response from our government?
    Ambassador Seche. No, I do not want a nuanced response.
    Senator Markey. You do not?
    Ambassador Seche. No, I do not. I want something 
straightforward and forceful.
    Senator Markey. But private.
    Ambassador Seche. But private.
    Senator Markey. Now would it help if this committee, 
unconstrained by the diplomatic relationship that the United 
States has with Saudi Arabia, what if this committee spoke 
loudly about what we expect of Saudi Arabia? Would that be 
helpful?
    Ambassador Seche. I think it is always helpful. When I was 
in the field, I always found it was very helpful if I could go 
to the government of any country and say, ``This is what my 
Congress, my Senate, feels. My hands are getting tied on this. 
You need to move so I can get this Congress away from this.''
    Senator Markey. I think that is an important component to 
this right now, because there is an obvious catastrophe 
unfolding there, and our silence ultimately is complicity to 
the actions that are taking place. I think it is time for us to 
stand up and demand from Saudi and others a diplomatic 
resolution of this issue in a telescoped time frame.
    Thank you both for testifying today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    You all have been outstanding witnesses. I have had numbers 
of Senators walk by and thank us for the hearing because of 
your testimony, so I want to thank you both for being here.
    And just to make an observation, this is not meant in any 
way to just be a pejorative statement, but I do not think the 
administration itself is committed to anything specifically in 
the Middle East. I think it is obviously a very light touch, 
except for the nuclear agreement with Iran. They were very 
committed to that.
    But it appears to me that what is developing is a situation 
where you have Russia, Iran, and the Shia countries--I mean, 
Iraq, really, let us face it, Iraq appears to me when I am 
there to be a country that we are making better for Iran. I 
mean, it is just a very different place than it was a few years 
ago.
    It appears that where we are is basically in a very light-
handed way, although it might get stronger over time, but we 
have created a Sunni-dominant sphere for us to operate in.
    In the past, we were trying to keep Iraq whole. Obviously, 
we are playing almost no role in that today, except, again, 
continued Shia domination there.
    So am I right? I mean, it appears to me that the GCC of the 
Sunni countries are the places where we can develop deeper 
ties. We have had deeper ties for some time. We are sort of 
abdicating, if you will, the role of keeping the other nation-
states or countries together, and basically creating a very 
one-sided relationship in the region.
    Can you all respond to that?
    Ms. Long. Senator, I think that is exactly it, and it is 
the failure of U.S. leadership or even perceived leadership 
that is causing some of these conflicts to not only involve 
outside parties to a much greater extent than are probably 
necessary as evidenced by the fact that the Houthis, we do not 
even know if they will come to the table and whether that will 
even count because no one knows what influence they are getting 
from Iran as far as negotiating a diplomatic resolution. It is 
this light touch that has been interpreted by both our friends 
and our enemies in the region as us not being involved, us not 
being committed, and as one of the Senators pointed out, an 
implicit hope that Iran will actually increase its role in the 
region at the expense of our traditional Arab allies.
    The Chairman. Do you want to speak to that, Ambassador?
    Ambassador Seche. Yes, thank you, Mr. Chairman. I would 
like to speak to that, because I do think that we have been 
able to begin this process of reconciliation and reassurance 
with our gulf allies, who are very much concerned about our 
long-term staying power in the region.
    I think what has come out of Camp David, and some people 
were dissatisfied with the results because they were not 
concrete enough, but I think it is a real reassertion of the 
fact that we are going to be involved in a strategic 
partnership with the countries of the Arab Gulf region going 
forward. There is no question in my mind that this is a 
cornerstone of our international foreign policy in the Middle 
East to have the gulf allies with us, working with us and 
trying to come to resolution of these very deep and unsettling 
crises.
    So I think that there is a way we can do this. I think 
introducing Iran into this equation is complicating our ability 
to reassure them. But I do not think it needs to be a fatal 
blow to this process. I think we need to make sure that we 
reassure them Iran can play a role, and we will definitely 
monitor what that role is to the extent we can with them, 
working with them in partnership.
    This is not an easy solution to anything. And it is 
probably not a satisfactory answer to your question. But I 
think what we have is such a difficult kind of tapestry to look 
at that you do not always see how it is going to appear until 
you step back a little bit and get a better feel for it. That 
is where we are now. We are so close to our allies, so close to 
Iran, so close to these issues, I am having a hard time, as I 
think that Obama administration is, to say this is what this is 
going to look like at the end of the day.
    The Chairman. I think Senator Cardin may have a question. 
But it seems to me that Yemen involvement that we have had, I 
know that Madam Secretary spoke to the fact it was 
international interests, but it feels more to me like we did 
what we did to demonstrate that we were with the Saudis and our 
other GCC friends. It was that that drove us to do what we did, 
not necessarily some type of national interest that we thought 
was paramount.
    I know you said both were apparent in our activities, but 
with this administration, it appears to me it was more of a 
show because of what was happening with Iran and the 
negotiations.
    Do you want to speak to that?
    Ms. Long. With this administration, I do think the overtly 
political was tantamount. As you are aware, we have had some 
limited United States forces in Yemen. That continued. And I 
think those were a signal previous to the gulf involvement that 
we were exercising our protection of our national interests. 
But certainly, other interests prevailed more prominently with 
this administration, and those are the support of our gulf 
allies.
    The Chairman. Senator Cardin.
    Senator Cardin. Mr. Chairman, I just would take exception 
with the United States having a light touch here. I would not 
call it a light touch, our involvement in Iraq, Afghanistan, 
Syria, the Middle East generally, GCC with our military 
presence. We are actively engaged. It is not an easy answer.
    Senator Markey's comments about the humanitarian crisis 
were right on target. We had a hearing on the humanitarian 
crisis in Syria and the number of people who could not be 
reached. And today we added to that the humanitarian crisis in 
Yemen and the number of people who are not being reached there.
    And Senator Kaine was correct when he challenged, why are 
we using our military? I do not think he was questioning our 
military being there, but the role of our military I think is 
what Senator Kaine was talking about. We want to see our 
military. It has to be engaged there because it is an important 
part of our overall strategy.
    But we cannot win a military victory in these countries. We 
know that. We have to establish a government that represents 
all the people. That is what we tried to do in Iraq, and we 
have made some progress in Iraq in moving that forward.
    We certainly need a political solution in Syria, and it 
must be without Assad. I agree with that completely. Assad has 
no legitimacy. And we need to transition to a government that 
can have the confidence of its people.
    In Yemen, we have to get the parties together to talk about 
how their future country will represent the will of all its 
people.
    Mr. Ambassador, I particularly appreciated your assessment 
that it is really an internal fight going on, and although 
there are external issues, it is more of an internal matter 
that has to be resolved.
    So I guess my point is that there is no simple answer here. 
The United States is critically important.
    Certainly there are other players in the GCC areas. There 
are other players that are operating, including Russia. But 
there is only one country that has the capacity to not only be 
involved but to represent universal values that can give us 
lasting peace in the region, and that is the United States.
    That is why it is so critically important that we try to 
get this right. There is no easy answer, but I thought today's 
discussion I found very, very helpful. And I thank both of our 
witnesses.
    The Chairman. I cannot let that stand. I cannot imagine how 
anybody would think the steps that you and I encouraged to 
happen in Syria that did not were indications of anything other 
than an incredibly light touch. I opposed what we did in Libya, 
but to go in and take out a leader and leave it in disarray as 
we have done is an incredibly light touch.
    I think much of what we are doing at present, talking about 
just in the last several years, is really more about face-
saving and acting as if we are doing something than really 
trying to drive an outcome. I just cannot imagine that there is 
anybody in our country that thinks differently than that, but 
maybe there is one.
    But anyway, with that, if you would, there will be 
questions until the close of business Thursday, if you all 
would answer those as responsively as you could.
    And we thank you very, very much for being here. We thank 
you for your service to our country in your various positions.
    And with that, our meeting is adjourned.
    [Whereupon, at 4:11 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Camp David Joint Statement Submitted by Senator Benjamin L. Cardin

                            THE WHITE HOUSE
                     Office of the Press Secretary
                  For Immediate Release, May 14, 2015

        U.S.-Gulf Cooperation Council Camp David Joint Statement

    President Obama and Heads of Delegations of the Gulf Cooperation 
Council (GCC) member states, the Secretary General of the GCC, and 
members the President's Cabinet met today at Camp David to reaffirm and 
deepen the strong partnership and cooperation between the United States 
and the GCC. The leaders underscored their mutual commitment to a U.S.-
GCC strategic partnership to build closer relations in all fields, 
including defense and security cooperation, and develop collective 
approaches to regional issues in order to advance their shared interest 
in stability and prosperity.
    The United States shares with our GCC partners a deep interest in a 
region that is peaceful and prosperous, and a vital interest in 
supporting the political independence and territorial integrity, safe 
from external aggression, of our GCC partners. The United States policy 
to use all elements of power to secure our core interests in the Gulf 
region, and to deter and confront external aggression against our 
allies and partners, as we did in the Gulf war, is unequivocal.
    The United States is prepared to work jointly with the GCC states 
to deter and confront an external threat to any GCC state's territorial 
integrity that is inconsistent with the U.N. Charter. In the event of 
such aggression or the threat of such aggression, the United States 
stands ready to work with our GCC partners to determine urgently what 
action may be appropriate, using the means at our collective disposal, 
including the potential use of military force, for the defense of our 
GCC partners.
    As with Operation Decisive Storm, GCC states will consult with the 
United States when planning to take military action beyond GCC borders, 
in particular when U.S. assistance is requested for such action.
    In this spirit, and building on the U.S.-GCC Strategic Cooperation 
Forum, the leaders discussed a new U.S.-GCC strategic partnership to 
enhance their work to improve security cooperation, especially on fast-
tracking arms transfers, as well as on counter-terrorism, maritime 
security, cybersecurity, and ballistic missile defense. They reviewed 
the status of negotiations between the P5+1 and Iran, and emphasized 
that a comprehensive, verifiable deal that fully addresses the regional 
and international concerns about Iran's nuclear program is in the 
security interests of GCC member states as well as the United States 
and the international community. The United States and GCC member 
states oppose and will work together to counter Iran's destabilizing 
activities in the region and stressed the need for Iran to engage the 
region according to the principles of good neighborliness, strict 
noninterference in domestic affairs, and respect for territorial 
integrity, consistent with international law and the United Nations 
Charter, and for Iran to take concrete, practical steps to build trust 
and resolve its differences with neighbors by peaceful means.
    The leaders decided to enhance their counter-terrorism cooperation 
on shared threats, particularly ISIL/DAESH and al-Qaeda, to deter and 
disrupt terrorist attacks with a focus on protecting critical 
infrastructure, strengthening border and aviation security, combating 
money laundering and terrorist financing, interdicting foreign 
fighters, and countering violent extremism in all its forms.
    The leaders, furthermore, discussed how best to address regional 
conflicts and defuse growing tensions. In this context, the leaders 
discussed the most pressing conflicts in the region, including Syria, 
Iraq, Yemen, and Libya, and what could be done to advance their 
resolution. They decided on a set of common principles, including a 
shared recognition that there is no military solution to the regions' 
armed civil conflicts, which can only be resolved through political and 
peaceful means; respect for all states' sovereignty and noninterference 
in their internal affairs; the need for inclusive governance in 
conflict-ridden societies; as well as protection of all minorities and 
of human rights.
    With regard to Yemen, both the United States and GCC member states 
underscored the imperative of collective efforts to counter Al Qaeda in 
the Arabian Peninsula, and emphasized the need to rapidly shift from 
military operations to a political process, through the Riyadh 
Conference under GCC auspices and U.N.-facilitated negotiations based 
on the GCC initiative, National Comprehensive Dialogue outcomes, and 
the Security Council's relevant resolutions. Taking into consideration 
the humanitarian needs of civilians, they welcomed the start of a 5-day 
humanitarian pause to facilitate delivery of relief assistance to all 
those in need and expressed hope it would develop into a longer, more 
sustainable cease-fire. They expressed their appreciation for the 
generous grant of $274 million provided by Saudi Arabia for the U.N. 
humanitarian response in Yemen. The United States reaffirmed its 
commitment, in partnership with GCC member states and other members of 
the international community, to seek to prevent the resupply of Houthi 
forces and their allies in contravention of U.N. Security Council 
Resolution 2216.
    The United States and GCC member states further affirmed their 
commitment to assisting the Iraqi Government and the international 
coalition in their fight against ISIL/DAESH. They stressed the 
importance of strengthening ties between GCC member states and the 
Iraqi Government, based on the principles of good neighborliness, non-
interference in internal affairs, and respect for state sovereignty. 
They encouraged the Iraqi Government to achieve genuine national 
reconciliation by urgently addressing the legitimate grievances of all 
components of Iraqi society through the implementation of reforms 
agreed upon last summer and by ensuring that all armed groups operate 
under the strict control of the Iraqi state.
    The leaders committed to continue working towards a sustainable 
political resolution in Syria that ends the war and establishes an 
inclusive government that protects all ethnic and religious minorities, 
and preserves state institutions. They reaffirmed that Assad has lost 
all legitimacy and has no role in Syria's future. They strongly 
supported increased efforts to degrade and ultimately destroy ISIL/
DAESH in Syria and warned against the influence of other extremist 
groups, such as 
al-Nusrah, that represent a danger to the Syrian people, to the region 
and to the international community. They expressed deep concern over 
the continuing deterioration of the humanitarian situation in Syria and 
condemned the prevention of aid distribution to the civilian population 
by the Assad regime or any other party.
    The leaders decided to move in concert to convince all Libyan 
parties to accept an inclusive power-sharing agreement based on 
proposals put forward by the U.N. and to focus on countering the 
growing terrorist presence in the country.
    The United States and GCC member states strongly affirmed the 
necessity of resolving the Israeli-Palestinian conflict on the basis of 
a just, lasting, comprehensive peace agreement that results in an 
independent and contiguous Palestinian state living side by side in 
peace and security with Israel. To that end, the United States and GCC 
member states underscored the enduring importance of the 2002 Arab 
Peace Initiative and the urgent need for the parties to demonstrate--
through policies and actions--genuine advancement of a two-state 
solution, and decided to remain closely engaged moving forward. The 
United States and GCC member states also recommitted to continue to 
fulfill aggressively their pledges made for Gaza's reconstruction, to 
include pledges made at the October 2014 Cairo Conference.
    The leaders expressed their concern over the delay in electing a 
new president of Lebanon, called on all parties to strengthen Lebanese 
state institutions, and emphasized the critical importance of Lebanon's 
Parliament moving forward to elect a President of the Lebanese Republic 
in accordance with the constitution. The leaders also emphasized their 
determination to support the Government of Lebanon in its resistance to 
ISIL/DAESH and al-Nusrah which threaten Lebanon's security and 
stability.
    The leaders pledged to further deepen U.S.-GCC relations on these 
and other issues in order to build an even stronger, enduring, and 
comprehensive strategic partnership aimed at enhancing regional 
stability and prosperity. They agreed to meet again in a similar high 
level format in 2016, in order to advance and build upon the US-GCC 
Strategic Partnership announced today.

                            THE WHITE HOUSE
                     Office of the Press Secretary
                  For Immediate Release, May 14, 2015

   Annex to U.S.-Gulf Cooperation Council Camp David Joint Statement

    President Obama and Heads of Delegations of the Gulf Cooperation 
Council (GCC) member states came to Camp David to reaffirm and deepen 
their close partnership, make progress on a shared set of priorities, 
confront common threats, and work to resolve, or at a minimum de-
escalate, regional crises and provide humanitarian assistance to those 
in need. The United States has worked with its GCC partners over six 
decades on matters of mutual interest, including confronting and 
deterring external aggression against allies and partners; ensuring the 
free flow of energy and commerce, and freedom of navigation in 
international waters; dismantling terrorist networks that threaten the 
safety of their people; and preventing the development or use of 
weapons of mass destruction. In recent years, we have made significant 
progress, under the framework of the U.S.-GCC Strategic Cooperation 
Forum, to work cooperatively on security and political issues of 
regional importance. Today, the United States and GCC member states 
recognize the need to consolidate and develop this relationship based 
on friendship and cooperation to more effectively address the 
challenges we face.
    At Camp David, the leaders of the GCC states and President Obama 
reaffirmed the longstanding U.S.-GCC partnership and pledged to further 
enhance the relationship between the United States and GCC member 
states. This partnership is based on a shared commitment to the 
stability and prosperity of the region, mutual interest in confronting 
the threat of terrorism and other destabilizing activities, and 
resolving regional conflicts through political means. The leaders 
underscored their mutual commitment to the U.S. GCC strategic 
partnership to provide for closer relations in all fields, including 
defense and security cooperation, and to develop collective approaches 
to regional issues in order to advance their shared interest in 
stability and prosperity.
    The U.S. GCC strategic partnership involves both enhanced 
cooperation between the United States and the GCC collectively and 
between the United States and individual GCC member states in 
accordance with their respective capacities and interests. It 
establishes a common understanding on mutual assurances and heightened 
cooperation, including efforts to build collective capacity to address 
the threats of terrorism and other regional security threats.
    As part of this new partnership, the leaders of the United States 
and the GCC decided on the following steps to enhance their 
cooperation:
Security Cooperation
    The U.S. GCC security relationship remains a major pillar of our 
strategic partnership and a cornerstone of regional stability. Our 
existing cooperation, including basing, information sharing, joint 
military exercises, and provision of sophisticated military equipment 
and training are a testament to the sustained value we place on our 
shared security interests. The leaders decided at Camp David to enhance 
security cooperation in the following areas:

    Security Assurances: At the core of the partnership is our shared 
interest in a region that is peaceful and prosperous. At Camp David, we 
have recommitted to the importance of this vision. President Obama 
affirmed that the United States shares with our GCC partners a deep 
interest in a region that is peaceful and prosperous, and a vital 
interest in supporting the political independence and territorial 
integrity, safe from external aggression, of our GCC partners. The 
United States policy to use all elements of power to secure our core 
interests in the Gulf region, and to deter and confront external 
aggression against our allies and partners, as we did in the Gulf War, 
is unequivocal.
    The United States is prepared to work jointly with the GCC states 
to deter and confront an external threat to any GCC state's territorial 
integrity that is inconsistent with the U.N. Charter. In the event of 
such aggression or the threat of such aggression, the United States 
stands ready to work with our GCC partners to determine urgently what 
action may be appropriate, using the means at our collective disposal, 
including the potential use of military force, for the defense of our 
GCC partners.
    The United States and GCC member states also decided to set up a 
senior working group to pursue the development of rapid response 
capabilities, taking into account the Arab League's concept of a 
``unified Arab force,'' to mount or contribute in a coordinated way to 
counter-terrorism, peacekeeping and stabilization operations in the 
region. The United States and GCC member states also affirmed their 
strong support for the efforts of the P5+1 to reach a deal with Iran by 
June 30, 2015, that would verifiably ensure that Iran does not develop 
a nuclear weapon, noting that such a deal would represent a significant 
contribution to regional security.
    As with Operation Decisive Storm, GCC states will consult with the 
United States when planning to take military action beyond GCC borders, 
in particular when U.S. assistance is requested for such action.

    Ballistic Missile Defense: GCC member states committed to develop a 
region-wide ballistic missile defense capability, including through the 
development of a ballistic missile early warning system. The United 
States will help conduct a study of GCC ballistic missile defense 
architecture and offered technical assistance in the development of a 
GCC-wide Ballistic Missile Early Warning System. All participants 
decided to undertake a senior leader tabletop exercise to examine 
improved regional ballistic missile defense cooperation.

    Military Exercises and Training Partnership: Building on their 
extensive existing program of military exercises and training 
activities, the United States and GCC member states decided to 
establish a new, recurring, large-scale exercise emphasizing 
interoperability against asymmetric threats, such as terrorist or 
cyber-attacks, or other tactics associated with hybrid warfare. The 
United States will also dispatch a military team to GCC capitals to 
discuss and decide on ways to increase the frequency of Special 
Operations Forces counter-terrorism cooperation and training.

    Arms Transfers: In order to ensure that GCC member states are able 
to respond quickly to current and future threats, the United States and 
GCC member states will take steps necessary to ensure arms transfers 
are fast-tracked to GCC member states contributing to regional 
security. To that end, President Obama will dispatch a senior team to 
the region in the coming weeks to discuss specific modalities. The 
United States and the GCC will work together to set up a dedicated 
Foreign Military Sales procurement office to process GCC-wide sales, 
streamlining third-party transfers, and exploring ways the United 
States could accelerate the acquisition and fielding of key 
capabilities.

    Maritime Security: To protect shared maritime security interests 
and freedom of navigation, the GCC member states decided to increase 
their participation in international maritime task forces on counter-
terrorism and counter-piracy. They also decided to take further steps 
to exchange information about and, as appropriate, interdict illicit 
arms shipments to conflict areas. The United States committed to 
provide additional training and technical assistance for coastal 
security, protection of offshore infrastructure, and counter-smuggling.
Counterterrorism
    Building on a shared commitment to address the acute threats posed 
by al-Qaeda, ISIL/DAESH and their affiliates, the United States and GCC 
member states will pursue initiatives to further build their capacity 
to track, investigate, and prosecute those engaged in terrorist 
activities within their borders, as well as to contain and deter 
transit, financing and recruitment by violent extremists. The United 
States and the GCC will hold a second U.S.-GCC Strategic Cooperation 
Forum Working Group on Counter-terrorism and Border Security to follow 
up on previous efforts to cooperate on border security, countering the 
financing of terrorism, cybersecurity, and critical infrastructure 
protection. Leaders also decided to strengthen counter-terrorism 
cooperation in the following areas:

    Foreign Terrorist Fighters: The United States and GCC member states 
will bolster their joint efforts to identify and share information on 
suspected foreign terrorist fighters (FTF). In response to the United 
Nations Security Council Resolution 2178 (2014), the United States and 
GCC member states will work together to implement traveler screening 
systems and enhanced biometrics collection capability, and share best 
practices to make it more difficult for terrorists to avoid detection 
at any GCC airport.

    Counterterrorist Financing: The United States and GCC member states 
will increase efforts to cut off terrorist financing, including through 
enhanced intelligence exchange and enforcement efforts to freeze assets 
of individuals and entities designated under relevant U.N. Security 
Council Resolutions, especially in the region. The United States will 
organize a public-private sector banking dialogue in 
the fall of 2015 to facilitate discussions on anti-money laundering and 
terrorist financing.

    Critical Infrastructure and Cybersecurity: The United States and 
GCC member states will consult on cybersecurity initiatives, share 
expertise and best practices on cyber policy, strategy, and incident 
response. The United States will provide GCC member states with 
additional security assistance, set up military cybersecurity exercises 
and national policy workshops, and improve information-sharing.

    Countering Violent Extremism: Recognizing the need to counter 
recruitment by extremist groups from at-risk youth and vulnerable 
communities, the United States and GCC member states will provide 
financial support for multilateral initiatives to counter violent 
extremism (CVE) aimed at strengthening resilience in vulnerable 
communities, including support for the Global Community Engagement and 
Resilience Fund. In addition, GCC leaders offered to host a CVE 
religious leaders conference aimed at boosting efforts that will expose 
the true nature of ISIL/DAESH and other terrorist organizations.

    Counterproliferation: The GCC member states determined to 
accelerate efforts against the proliferation of WMD, the means of their 
delivery, as well as advanced conventional weapons, by enhancing 
national controls on proliferation-sensitive items and technologies.
Regional Security
    The United States and GCC member states reaffirmed their shared 
interest in de-escalating regional tensions, resolving regional armed 
civil conflicts, and addressing the critical humanitarian needs of 
populations affected by conflict. The leaders made clear their belief 
that the conflicts in the region, including Syria, Iraq, Yemen, and 
Libya, are eroding state structures, creating ungoverned spaces, and 
promoting sectarianism, all of which serve as fodder for terrorists and 
other extremist groups and directly threaten their shared security 
interests.
    The leaders set out core principles that, in their view, must 
govern efforts to resolve regional armed civil conflicts in Syria, 
Iraq, Yemen and Libya, including:

  <bullet> The respect for state sovereignty;
  <bullet> A shared recognition that there is no military solution to 
        the regions' civil conflicts, and that they can only be 
        resolved through political and peaceful means; and
  <bullet> The importance of inclusive governance; and respect for, and 
        protection of, minorities and human rights.

    The leaders also held in-depth discussions on the most pressing 
conflicts in the region and steps they decided should be taken to help 
resolve them.

    Iran: The United States and GCC member states oppose and will 
cooperate in countering Iran's destabilizing activities in the region 
and continue consultations on how to enhance the region's security 
architecture. As part of this effort, the United States will work in 
partnership with GCC member states to build their capacity to defend 
themselves against external aggression, including in terms of air and 
missile defense, maritime and cybersecurity, as GCC member states take 
steps to increase the interoperability of their military forces and 
continue to better integrate their advanced capabilities. At the same 
time, the United States and GCC member states reaffirmed their 
willingness to develop normalized relations with Iran should it cease 
its destabilizing activities and their belief that such relations would 
contribute to regional security.

    Yemen: The United States and GCC member states expressed deep 
concern over the situation in Yemen and its destabilizing impact on the 
region. Leaders emphasized the need to rapidly shift from military 
operations to a political process, through the Riyadh Conference under 
GCC auspices and U.N.-facilitated negotiations based on the GCC 
initiative, National Comprehensive Dialogue outcomes, and the Security 
Council's relevant resolutions. Taking into consideration the 
humanitarian needs of civilians, they welcomed the start of a five-day 
humanitarian pause to facilitate delivery of relief assistance to all 
those in need and expressed hope it would develop into a longer, more 
sustainable ceasefire. They expressed their appreciation for the 
generous grant of $274 million provided by Saudi Arabia for the U.N. 
humanitarian response in Yemen. Leaders emphasized the importance of 
working with the international community to prevent the provision of 
weapons to designated Yemeni parties or those acting on their behalf or 
at their direction in contravention of U.N. Security Council Resolution 
2216.
    The United States also reaffirmed its assurance to help GCC member 
states defend themselves against external threats emanating from Yemen 
and emphasized its particular support for Saudi Arabia's territorial 
integrity. The leaders underscored that Yemen's political transition 
should be in accordance with the GCC Initiative, National Dialogue 
outcomes and UNSC resolutions. Furthermore, leaders stressed the 
imperative of collective efforts to counter the shared threat from 
Al Qaeda in the Arabian Peninsula, which is exploiting the crisis.

    Iraq: The United States and GCC member states reiterated their 
support for the Iraqi government in its efforts to degrade and defeat 
ISIL/DAESH. They encouraged the Iraqi government to achieve genuine 
national reconciliation by urgently addressing the legitimate 
grievances of all components of Iraqi society through the 
implementation of reforms agreed upon last summer and by ensuring that 
all armed groups operate under the strict control of the Iraqi state. 
GCC member states recommitted themselves to reestablishing a diplomatic 
presence in Baghdad and to working with the Iraqi government to support 
efforts against ISIL/DAESH, including in Anbar and other provinces.

    Libya: Noting growing concern about political deadlock at a time 
when violent extremism is expanding, the United States and GCC member 
states decided to coordinate their efforts more closely on Libya's 
political transition. They will press all parties to reach a political 
agreement based on proposals put forward by the U.N. and to urgently 
establish a national unity government before Ramadan, and stand ready 
to substantially increase their assistance to such a government. 
Leaders committed to seek to stem illicit arms flows into Libya, and 
called on all Libyans to focus on countering the growing terrorist 
presence, including that of ISIL/DAESH, instead of fighting their 
political rivals.

    Syria: The United States and GCC member states reaffirmed the 
importance of a genuine, sustainable political solution as soon as 
possible to end the war in Syria and prevent the further suffering of 
its people. All affirmed that Assad had lost all legitimacy and had no 
role in Syria's future. They affirmed their commitment to working 
towards a post-Assad government that is independent, inclusive, and 
protects the rights of minority groups. The United States and the GCC 
member states committed to increasing support to the moderate 
opposition. GCC member states decided to intensify efforts to combat 
extremist groups in Syria, notably by shutting down private financial 
flows or any form or assistance to ISIL/DAESH, Al Nusrah Front, and 
other violent extremist groups, and to intensify efforts to prevent the 
movement of foreign terrorist fighters in and out of Syria. They 
expressed their determination to work together to mobilize the 
international community for post-Assad reconstruction of Syria. All 
affirmed their commitment to continue to support Syria's neighbors as 
they face the immense challenges posed by the ongoing conflict and to 
work together to strengthen the stability and security of these 
countries.

    Israeli-Palestinian Conflict: The United States and GCC member 
states strongly affirmed the necessity of resolving the Israeli-
Palestinian conflict on the basis of a just, lasting, comprehensive 
peace agreement that results in an independent and contiguous 
Palestinian state living side-by-side in peace and security with 
Israel. To that end, the United States and GCC member states 
underscored the enduring importance of the 2002 Arab Peace Initiative 
and the urgent need for the parties to demonstrate--through policies 
and actions--genuine advancement of a two-state solution, and decided 
to remain closely engaged moving forward. The United States and GCC 
member states also recommitted to continue to fulfill aggressively 
their pledges made for Gaza's reconstruction, to include pledges made 
at the October 2014 Cairo Conference.

    Lebanon: The leaders expressed their concern over the delay in 
electing a new president of Lebanon, called on all parties to 
strengthen Lebanese state institutions, and emphasized the critical 
importance of Lebanon's parliament moving forward to elect a president 
of the Lebanese Republic in accordance with the constitution.
U.S.-GCC Strategic Cooperation Forum
    The leaders pledged to further deepen U.S.-GCC relations on these 
and other issues, to build an even stronger, enduring, and 
comprehensive strategic partnership and work together for the same, 
aimed at enhancing regional stability and prosperity.
    To ensure continuity of those efforts, and speedy implementation of 
decisions expressed in the Camp David Joint Statement of 14 May 2015, 
they directed their respective administrations to strengthen the 
framework of the U.S.-GCC Strategic Cooperation Forum, to include more 
frequent ministerial and technical meetings for foreign affairs, 
defense, security, economic and other areas relevant to the Forum's 
activities. They agreed to meet again in a similar high level format in 
2016, in order to advance and build upon the U.S.-GCC Strategic 
Partnership announced today.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
